<html>
<title> - BACK FROM THE BATTLEFIELD, PART II: SEAMLESS TRANSITION TO CIVILIAN LIFE</title>
<body><pre>[Senate Hearing 109-176]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-176
 
                  BACK FROM THE BATTLEFIELD, PART II:

                  SEAMLESS TRANSITION TO CIVILIAN LIFE

=======================================================================




                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                 U.S. GOVERNMENT PRINTING OFFICE

22-553                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001














                     COMMITTEE ON VETERANS' AFFAIRS


        .........................................................


                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I), Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado


                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director



















                            C O N T E N T S

                              ----------                              

                        Tuesday, April 19, 2005

                                SENATORS

                                                                   Page


Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Murray, Patty, U.S. Senator from Washington......................     2
    Prepared statement...........................................     3
Salazar, Hon. Ken, U.S. Senator from Colorado....................    14
    Prepared statement...........................................    14

                               WITNESSES

Wyatt, Tristan, Veteran of Operation Iraqi Freedom...............     4
    Prepared statement...........................................     5
Fernandez, 1st Lieutenant John A., (RET), Veteran of Operation 
  Iraqi 
  Freedom........................................................     6
    Prepared statement...........................................     8
Cooper, Admiral Daniel L., Under Secretary for Benefits, 
  Department of Veterans Affairs; accompanied by Robert J. Epley, 
  Associate Deputy Under Secretary for Policy and Program 
  Management, Department of Veterans Affairs.....................    18
    Prepared statement...........................................    20
Juarbe, Frederico Jr., Assistant Secretary for Veterans 
  Employment and Training, Veterans Employment and Training 
  Service, Department of Labor...................................    22
    Prepared statement...........................................    24
Molino, John, Deputy Under Secretary of Defense for Military 
  Community and Family Policy, Department of Defense.............    29
    Prepared statement...........................................    30

                                APPENDIX

Response to post-hearing questions submitted by Hon. Larry E. 
  Craig, 
  Chairman, to Department of Veterans Affairs....................    43
Response to post-hearing questions submitted by Hon. Larry E. 
  Craig, 
  Chairman, to John M. Molino, Deputy Under Secretary of Defense 
  for Military Community and Family Policy, Department of Defense    45

















                  BACK FROM THE BATTLEFIELD, PART II:

                 SEAMLESS TRANSITION TO CIVILIAN LIFE

                              ----------                              


                        TUESDAY, APRIL 19, 2005

                      United States Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 

Ranking Member, presiding.
    Present: Senators Akaka, Murray, and Salazar.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
            RANKING MEMBER, U.S. SENATOR FROM HAWAII

    Senator Akaka. The Committee on Veterans' Affairs will come 
to order.
    I am very pleased to welcome all of you to this very 
important hearing today. Chairman Craig would be here to 
welcome you, however, he has an amendment on the floor this 
morning and will be unable to join us at this moment.
    I have enjoyed working with the Chairman and know that he 
would be here now if he could, and we are looking forward to 
him joining this Committee later this morning.
    I am grateful for this opportunity to talk about what the 
Government is doing to care for transitioning servicemembers. I 
echo the sentiment of George Washington from so long ago 
``Young people will only serve in our Armed Services if they 
perceive that veterans of earlier wars were appreciated by 
their Nation.'' I think these words ring especially true today. 
We must be doing all that we can for our soldiers, sailors, 
airmen and marines, as they transition from military to 
civilian life.
    I thank all the panelists for being here today. I would 
like to especially welcome two of our Nation's heroes, Mr. 
Tristan Wyatt and 1st Lt. John Fernandez, both veterans of the 
current conflict in Iraq.
    Mr. Wyatt grew up in New Jersey and moved to Colorado in 
1998. He enlisted in the Army in October 2002, attended basic 
training in Fort Leonard Wood, Missouri, and became a combat 
engineer. After airborne school at Fort Benning, Georgia, Mr. 
Wyatt was assigned to the 3rd Armored Cavalry Regiment at Fort 
Carson, Colorado. In late February he was deployed to Iraq.
    On August 25, 2003, Mr. Wyatt was wounded in action en 
route from Fallujah to the city of Caldiah. During the 
firefight, Mr. Wyatt took shrapnel and lost his right leg above 
his knee. He was awarded the Bronze Star and the Purple Heart 
on September 1st. He arrived at Walter Reed Medical Center 
where he was treated until the middle of January. Mr. Wyatt was 
medically discharged on June 24, 2004.
    First Lieutenant John Fernandez is a 2001 graduate of West 
Point Military Academy and was captain of the West Point 
lacrosse team.
    During Operation Iraqi Freedom, Lt. Fernandez was a member 
of the Charlie Battery 313 Field Artillery based out of Fort 
Sill, Oklahoma. He was deployed to OIF on January 20, 2003. On 
April 3rd, 2003, 20 miles south of Baghdad, Lt. Fernandez was 
injured when a 500-pound laser-guided bomb hit in very close 
proximity to him. As a result of this friendly fire incident, 
both of his legs were amputated below the knee. Lt. Fernandez 
arrived at Walter Reed Army Medical Center on April 11. He was 
sent home from Walter Reed upon his own request on June 20, 
2003. He officially left the service on August 11, 2004, 16 
months after his initial injury.
    Gentlemen, I look forward to hearing the testimony that you 
will give today. Both of you have special insight into how the 
Departments of Veterans Affairs, Defense and Labor systems are 
working. Please share your views with us so that we can better 
serve our newly separated servicemembers. Will both of you 
please move up to the desk?
    I applaud the work that VA, DOD and DOL have done to ensure 
a seamless transition to the men and women that serve. However, 
the Committee needs to know if these departments are doing 
everything possible to guarantee that each servicemember is 
receiving high quality assistance. Our servicemembers, 
including the men and women who are coming back from Iraq and 
Afghanistan, should have nothing less than a seamless 
reintegration into society and their lives. We need to be 
particularly attentive to the challenges faced by the Guard and 
Reserves in their transition from military to civilian life.
    In my own State of Hawaii more than 700 Guard and Reserve 
members have returned from active duty, and there are currently 
more than 3,200 on active duty, who will be transitioning in 
the future. I am very concerned that these servicemembers have 
the appropriate services available to them upon their return 
from active duty.
    Again, thank you all for being here today and I look 
forward to your testimony.
    May I call on Senator Murray for any remarks she has?

            OPENING STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Senator Akaka, and 
thank you to you and Chairman Craig for holding this hearing 
today, and I especially want to thank both of our witnesses for 
being here today.
    I think how we treat our soldiers when they return home to 
make sure the transition back into civilian life is as seamless 
as possible is really critical. I think it is something we have 
learned from previous war experiences, certainly from Vietnam 
when I was younger, and as well as the first Gulf War when we 
discovered Gulf War syndrome, as Senator Rockefeller worked on 
so hard a number of years ago, that we have to listen to the 
soldiers who are returning and making sure that we do the best 
job possible.
    I am hoping to have a field hearing in my home State in the 
future because we have thousands of Guard and Reserve returning 
as well.
    I will submit my statement for the record, Mr. Chairman, 
and look forward to hearing the testimony. I have two other 
hearings I have to be at this morning, so I will not be able to 
stay a long time, but I do think this is absolutely critical. 
Your testimony today will help us make sure we are doing the 
right thing for all of the soldiers who are returning, so I 
really appreciate your being here today.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you. Senator Murray, your statement 
will be included in the record.
    [The prepared statement of Senator Murray follows:]

               Prepared Statement of Hon. Patty Murray, 
                      U.S. Senator from Washington
    I thank Chairman Craig and Senator Akaka for calling the hearing. I 
want to welcome the panel and thank them for their service to our 
country.
    I have been concerned about transition issues for quite some time. 
They have always been a burden for the soldiers on the front lines and 
their families back home. I saw some of the effects of war at home when 
my father returned from WWII. Then, the whole country became more aware 
of these issues thanks to the brave men and women who came home after 
their experience in Vietnam. When I first joined this Committee, we 
were seeing the effects of a relatively short Persian Gulf War.
    Now, I see the effects of this war in my visits to Walter Reed, 
Bethesda, my VA facilities back home, and with the families I meet all 
over Washington State. During my trip to Baghdad and Kuwait last month, 
I saw the concern in soldiers' eyes as they talked with both 
anticipation and trepidation about their return home. And, I hear about 
the concerns of returning soldiers and their families every day.
    Washington State has a proud military heritage with Fort Lewis, 
McChord, Fairchild, and all of the Puget Sound Naval bases--each of 
them have sent service men and women into Iraq or Afghanistan. Fort 
Lewis is home to three Stryker Brigades--two have already seen action 
in Iraq. And, we have a large number of National Guard and Reserves who 
have served--or are currently in Iraq or Afghanistan. In all, over 
20,000 service men and women from my home State have gone overseas in 
this War, and a large group has just returned. That's why I brought 
together the leaders of Madigan Army Hospital, our regional VA, Fort 
Lewis and Camp Murray last January. I wanted to know their plan to take 
care of the returning soldiers and their families, and to ensure they 
had all of the help I could provide.
    Mr. Chairman, that's why this hearing is so important--we need to 
find out what we can do better. And we need to keep talking so more of 
our new veterans come forward and get the care and benefits they have 
earned. That's why I have asked to hold a field hearing in Washington 
State--because keeping the issue front and center is what my military 
and VA leaders have asked me to do.
    Mr. Chairman, I am eager to hear from our panelists today, and 
review all of their testimony in the days ahead. I look forward to 
working with you, Senator Akaka and the rest of our colleagues on a VA 
benefits bill that can make our newest veterans' transitions back home 
as easy as possible.
    I am particularly interested in the level of counseling we provide 
families prior to a soldier's return home. For example, do they get 
counseling to spot warning signs of things like PTSD? And, how can they 
help their loved-one adjust to life back at home, or back on the job.
    I would like to hear how we maintain contact with both returning 
service men and women--as well as their families--during this 
transition period.
    I am also interested in how we treat Guard and Reserve soldiers 
when they come back. I know there are particular challenges when many 
of these soldiers don't live close to military or VA facilities.
    I could go on, but these are some of the issues I hope our second 
panel can answer for the record. Thank you Mr. Chairman, I look forward 
to both of our panels' instructive testimony.

    Senator Akaka. Turning now to the first panel, Mr. Wyatt, 
will you please give your testimony and please let the 
Committee know about your transition from military to civilian 
life.

                  STATEMENT OF TRISTAN WYATT, 
               VETERAN OF OPERATION IRAQI FREEDOM

    Mr. Wyatt. Good morning. I would first like to say it is an 
honor for me to be here today.
    After wounds received in action during Operation Iraqi 
Freedom, I began a stint at Walter Reed Army Hospital. It 
lasted for 6 months of recovery and therapy.
    Understanding the severity of my wounds and against my best 
wishes, I knew it was highly unlikely I would ever see the 
battlefield again. I was very disappointed, and even more, I 
was scared. I did not know what my next step should be or where 
I should go. As soon as I was coherent I found physical 
therapists and members of the VA began to show up at my 
bedside. Every day I was given information about benefits, 
entitlements and health care. For the most part it was 
overwhelming, a lot of information to take in in a short amount 
of time.
    The thing that impressed me the most was there was always 
an answer to my question. I never felt blown off. They had a 
simple and effective way of passing the information to me in 
ways that I could understand and ways I could retain. This was 
very important.
    Leaving the hospital I felt confident. I had a good 
understanding of what to do and where to begin once I returned 
home to Colorado. The process for most of my benefits and 
entitlements had begun at Walter Reed so when I returned it was 
only a matter of weeks before my benefits were in order. It was 
a fairly quick and effective process. The longest portion was 
the medical boarding. Although this was not a huge issue for 
me, this was a big financial and emotional setback for the 
soldiers who had families. It is very tough for these soldiers 
to wait around for months on the boarding process in order to 
be home with their families and begin their new lives.
    On top of everything the VA has done for me and my family, 
they had also offered me a job recently which I accepted at the 
beginning of this month. It was a product of the vocational 
rehab process designed to give personal assistance with 
education, the ultimate goal is employment. This is how I was 
introduced to the Vet IT program at the Regional VA Office here 
in Washington, DC. It offers returning disabled vets the 
opportunity at hard-to-attain GS positions within the VA. I 
cannot say enough about these programs and the volunteers that 
run them. There were now more opportunities available to me 
than I could have ever imagined.
    It would be great to see these programs implemented in 
other VA offices around the country. Many vets are not willing 
to move to Washington, DC because of the troubles of moving a 
family cross-country. This is not something that I think is 
wrong, but I believe we are on the verge of something very 
good, a great thing. I had an opportunity and was able to take 
advantage of it because I have no family or children to 
consider. I was able to move on a whim. These soldiers with 
families deserve the same opportunities, and more than likely 
they need it.
    It seems to me the system is much more stressful and 
financially draining on the soldiers with families because of 
the waiting periods. From my experience and the experience of 
my comrades there should be more emphasis on expanding Vet IT 
and vocational rehab programs around the country.
    My separation from the Army was made a lot smoother than 
expected because of people who truly care and are willing to 
take a chance on a busted soldier. Even though I despise the 
thought of leaving combat arms, my life after injury was put 
back on course quickly, and the result was better than I could 
have ever hoped for. I will forever be in debt.
    It was my pleasure and my honor to fight for this great 
country, and I am grateful for the opportunity to work for this 
organization dedicated to veterans.
    Thank you.
    [The prepared statement of Mr. Wyatt follows:]

                 Prepared Statement of Tristan Wyatt, 
                   Veteran of Operation Iraqi Freedom
    I would first like to say that it is an honor to be here. My name 
is Tristan Wyatt. I enlisted in the Army as a combat engineer in 
October of 2002. After completion of basic training and airborne school 
I was assigned to the 3rd Armored Cavalry Regiment out of Ft. Carson, 
Colorado, with whom I deployed with in support of Operation Iraqi 
Freedom in March of 2003. During a firefight in the city of Fallujah 
two of my squad members and I all lost a leg on August 25th 2003. We 
were transported to Germany and then to Walter Reed Army hospital where 
I spent the better part of 6 months in recovery and therapy.
    Understanding the severity of my wounds, and against my best 
wishes, I knew it was highly unlikely I would ever see a battlefield 
again. I was very disappointed and even more scared; I did not know 
what my next step should be. As soon as I was coherent, physical 
therapists begun the show up at my bedside and so did personnel from 
the VA. Everyday I was given information about benefits, entitlements 
and health care. It was often an overwhelming amount of information, 
but what was most impressive; there was always an answer to my 
question. They had a simple and effective way of passing the 
information to me in ways I could understand and retain. This was very 
important. Leaving the hospital I felt confident I had a good 
understanding of what to do and where to begin when I returned home to 
Colorado. The process for most of my benefits and entitlements had 
begun at Walter Reed, so when I returned home it was only a matter of 
weeks before my entitlements and benefits were in order. It was a 
fairly quick and effective process. The longest portion was the medical 
boarding process. Although not a huge issue for me, a single solider. 
This was a big financial and emotional setback for the soldiers with 
families. It was very tough for these guys to wait around for months on 
the boarding process in order to be home with their families and begin 
their new lives.
    On top of everything that the VA has done for me and my family, 
they offered me a job which I accepted earlier this month. It was a 
product of the Vet IT program at the Regional VA office here in DC. I 
cannot say enough about this program and the people that run it. This 
program offers returning disabled Vets the opportunity at hard-to-
attain GS positions within the VA IT office. Between this program and 
vocational rehab there were many more opportunities available to me 
than I could have imagined. It would be great to see this program 
implemented in other VA offices around the country. Many vets are not 
willing to come to Washington DC because of the difficulty of moving a 
family. This is my main concern. Not something that is wrong, but I 
believe we are on the verge of something great. I had an opportunity 
and was able to take it because I had no family or children. I was able 
to move on a whim. These soldiers with families deserve the same 
opportunities and more than likely need it. It seems to me the system 
is much more stressful and financially draining on the soldiers with 
families. From my experience and the experiences of my comrades, this 
should be a main focal point.
    My separation from the Army was made a lot smoother than expected 
because of these people who truly care and are willing to take a chance 
on a busted soldier. My life after combat injury was put back on course 
quickly and the result was better than I could have ever hoped for. I 
will forever be in debt. It was my pleasure and honor to fight for this 
great country and I am grateful for the opportunity to work for this 
outstanding organization dedicated to veterans.

    Senator Akaka. Thank you very much.
    Lieutenant Fernandez, will you please give your testimony?

         STATEMENT OF 1st LT JOHN A. FERNANDEZ, (RET) 
               VETERAN OF OPERATION IRAQI FREEDOM

    Lieutenant Fernandez. Good morning, ladies and gentlemen. 
My name is 1st Lieutenant John Fernandez, Retired. Not bad to 
be retired at 27. I am honored to be invited to testify about 
my experiences after being injured in Operation Iraqi Freedom.
    I would like to first begin by thanking Chairman Craig, 
even though absent this morning, Ranking Member Akaka and 
Members of the Committee for giving me this incredible 
opportunity to testify.
    To give you a brief background, I am from Rocky Point, New 
York. I am a 2001 graduate of the United States Military 
Academy and former captain of the Army lacrosse team. Before 
receiving my injuries on April 3rd, 2003, among other 
responsibilities I was primarily a Multiple Launch Rocket 
System Platoon Leader. I was married before deploying to Kuwait 
and will be celebrating my daughter's 1-year birthday at the 
end of April.
    Though my military career was brief, I enjoyed every 
opportunity that I was given to lead my soldiers. This was 
especially true during my deployment to Kuwait and the ensuing 
invasion of Iraq. It was the culmination of years of training 
and hard work that gave my soldiers and I the confidence to 
perform like a well-oiled machine. We were thrown many 
obstacles, but overcame adversity in every instance.
    We frequently found ourselves doing our primary job of 
firing rockets, but often also found ourselves doing things 
that we never thought that we would do as a Field Artillery 
Unit, such as raiding buildings, traveling across the desert 
providing security for downed vehicles, and pushing ourselves 
to points once believed out of reach. However, we never 
faltered and we grew as a team.
    Unfortunately, after passing through the Karbala Gap and 
reaching about 20 miles south of Baghdad, our team took a big 
blow. After traveling for many hours we set up our battery and 
conducted security patrols, preparing to provide supporting 
fires for the units fighting to our north. We then prepared 
security shifts and started to fire rockets.
    After my shift I tried to catch up on long-awaited rest. 
However, that was cut short when I woke up on the ground, 
surrounded by flames, with numbing pain in my legs. I felt for 
my legs, realized that they were still there. I then pulled off 
my sleeping bag and realized that my life had changed forever. 
I saw that my feet were very badly hit.
    But not knowing what had occurred at the time, it was 
instinct to spring into action. I crawled to my HMMWV and 
grabbed my rifle, flak vest and Kevlar helmet. I looked for my 
reconnaissance sergeant in the HMMWV, but he was not there. I 
saw fuel spewing from the bottom of the vehicle and realized I 
had little time before the ammunition in the vehicle exploded. 
I called for my gunner, who called back to me. I crawled to his 
location, and after realizing the severity of his injuries, 
attempted to pull him away from the burning HMMWV.
    That night at least five of my men were seriously injured, 
of which my injuries were the most severe. But more 
regrettably, the three men that I worked side-by-side with 
every day died, including the soldier that I attempted to save.
    Immediately following the incident, I was medevaced to 
field hospitals within Iraq, then to Kuwait, and following 
Kuwait, to Spain. Spain was my last stop before reaching Walter 
Reed Army Medical Center on April 11, 2003. Throughout my 
journey to Walter Reed, I received good medical care, 
highlighted by the effort to save as much of my feet as 
possible. No amputations were attempted until I reached 
stateside. After arriving at Walter Reed I was told that I was 
going to receive a right below-the-knee amputation, and left 
symes amputation, or below-ankle amputation. The medical care 
that I received at Walter Reed was, in my opinion, phenomenal. 
The doctors cared a great deal for me, and gave my family the 
courtesy and respect they deserved during a time of 
uncertainty.
    During this time my wife quit her job and left school to 
stand by my side. My whole family took a great amount of time 
off of work, and incurred the travel expenses to come visit me 
on various occasions. My family's lives were flipped upside 
down in the wake of my injuries. Luckily, there was a great 
amount of support, not only from my local community, but also 
from across America as a whole. Without the monetary help that 
I received from my friends and family, I would have suffered 
large financial losses. There was an immense amount of 
financial stress placed on me, and that would continue 
throughout my transition from military into civilian life.
    Though the medical care that I received was great, there 
were also many difficulties that I encountered when 
transitioning into my new lifestyle. The Army heavily pushed 
for a quick discharge. However, after educating myself on the 
process, I knew that I could not be discharged until I reached 
maximum medical benefit. Facing a large pay decrease after 
being discharged, I had to fight to stay on active duty until I 
felt that I had reached ``maximum medical benefit,'' which for 
me was getting as close to my prior physical condition as 
possible, whether that be running or whatever the case, within 
a reasonable amount of time. I was even told that I would 
receive dual compensation, or VA disability benefits and Army 
retirement benefits, which actually only applies to disabled 
retirees with 20 or more years of service.
    I always conducted my own research, but my concern was how 
many soldiers in similar situations were enticed with incorrect 
information? Initially I did all of my own research. However, I 
have since received continued help from veteran service 
organizations. Without these outside veterans organizations, 
such as the Wounded Warrior Project, soldiers such as myself 
would be very lost.
    And this should not be. There is an overwhelming need for 
precise information as injured soldiers have to negotiate 
through a bureaucratic process to transition into a new 
situation. And it is the Government's job to provide this 
information in an effective manner in order to facilitate the 
future success for injured soldiers.
    I finished the medical board process 16 months after being 
injured, and entered military disability retirement, where I 
took advantage of Veterans Affairs services offered. Again, I 
was lucky enough to have veterans organizations help me parley 
the overwhelming amount of information. My wife and I are 
attending graduate school full time on dependent's education 
and vocational rehabilitation benefits respectively. I will 
also be using the VA grant for specially adapted housing. 
However, because of the financial strain of preparing myself 
for future employment, which is not a short process, it was 
necessary for me to also obtain Social Security disability 
benefits.
    I am very grateful for all of the services that I have been 
provided from my Government. I never realized how great America 
was until I went to Iraq and saw how differently I could have 
been raised. I am truly proud to be an American. If I had the 
chance to go back in time, I would choose the same path to 
defend this country every single time.
    This country has stood by my side and provided me with a 
great amount of financial help. However, I was injured in the 
beginning of the war, and can only hope and advocate for the 
same support to continue for the soldiers being injured today, 
because I know without the help of American society, I would 
have been in much more dire financial stress. However 
remarkable the support from society is, the question remains, 
should this be the job of the American people?
    Again, I would like to thank you for this opportunity to 
testify. I would now be willing to answer questions.
    [The prepared statement of Lt. Fernandez follows:]

     Prepared Statement of 1st Lieutenant John A. Fernandez, (RET) 
                   Veteran of Operation Iraqi Freedom
    Good morning Ladies and Gentlemen. My name is 1LT John Fernandez 
(RET), and I am honored to be invited to testify about my experiences 
after being injured during Operation Iraqi Freedom. I would like to 
begin by first thanking Chairman Craig, Ranking Member Akaka and 
Members of the Committee for giving me the incredible opportunity to 
testify.
    To give you a brief background--again my name is 1LT John Fernandez 
(RET) and I am from Rocky Point, NY. I am a 2001 graduate of the United 
States Military Academy and former captain of the Army Lacrosse Team. 
Before receiving my injuries on April 3, 2003, among other 
responsibilities, I was primarily a Multiple Launch Rocket System 
Platoon Leader. I was married before deploying to Kuwait and will be 
celebrating my daughter's 1-year birthday at the end of April.
    Though my military career was brief, I enjoyed every opportunity 
that I was given to lead my soldiers. This was especially true during 
my deployment to Kuwait, and the ensuing invasion of Iraq. It was the 
culmination of years of training and hard work that gave my soldiers 
and I the confidence to perform like a well-oiled machine. We were 
thrown many obstacles, but overcame adversity in every instance. We 
frequently found ourselves doing our primary job of firing rockets, but 
often, also found ourselves doing things we never thought that we would 
do as a Field Artillery unit such as: raiding buildings, traveling 
across the desert providing security for downed vehicles, and pushing 
ourselves to points once believed to be out of reach--however, we never 
faltered, and we grew as a team.
    Unfortunately, after passing through the Karbala Gap, and reaching 
about 20 miles south of Baghdad, our team took a big blow. After 
traveling for many hours we set up our battery, and conducted security 
patrols preparing to provide supporting fire for units fighting to our 
north. We then prepared security shifts and started to fire rockets. 
After my shift, I tried to catch up on long awaited rest. However, that 
was cut short when I woke up on the ground, surrounded by flames, with 
numbing pain in my legs. I felt for my legs, realized that they were 
still there. I then pulled off my sleeping bag, and realized that my 
life had changed forever. I saw that my feet were very badly hit. But 
not knowing what had occurred at the time, it was instinct to spring 
into action. I crawled to my HUMMWV and grabbed my rifle, flak vest and 
Kevlar helmet. I looked for my reconnaissance sergeant in the HUMMWV, 
but he was not there. I saw fuel spewing from the bottom of the vehicle 
and realized that I had little time before the ammunition exploded. I 
called for my gunner, who called back to me. I crawled to his location, 
and after realizing the severity of his injuries, attempted to pull him 
away from the burning HUMMWV.
    That night at least five of my men were seriously injured, of which 
my injuries were the most severe. But more regrettably, the three men 
that I worked side-by-side with everyday, died, including the soldier 
that I attempted to save.
    Immediately following the incident I was medevaced to field 
hospitals within Iraq, then to Kuwait, and following Kuwait to Spain. 
Spain was my last stop before reaching Walter Reed Army Medical Center 
on April 11, 2003. Throughout my journey to Walter Reed I received good 
medical care, highlighted by the effort to save as much of my feet as 
possible. No amputations were attempted until I reached stateside. 
After arriving at Walter Reed, I was told that I was going to receive a 
right below-the-knee amputation, and left symes (or below ankle 
amputation). The medical care that I received at Walter Reed was, in my 
opinion, phenomenal. The doctors cared a great deal for me and gave my 
family the courtesy and respect they deserved during a time of 
uncertainty.
    During this time my wife quit her job and left school to stand by 
my side. My whole family took a great amount of time off of work, and 
incurred the travel expenses to come visit me on various occasions. My 
family's lives were flipped upside down in the wake of my injuries. 
Luckily, there was a great amount of support from not only my local 
community, but also from across America as a whole. Without the 
monetary help that I received from friends and family I would have 
suffered large financial losses. There was an immense amount of 
financial stress placed on me, and that would continue throughout my 
transition from military into civilian life.
    Though the medical care that I received was great, there were also 
many difficulties that I encountered when transitioning into my new 
lifestyle. The Army heavily pushed for a quick discharge. However, 
after educating myself on the process, I knew that I could not be 
discharged until I reached maximum medical benefit. Facing a large pay 
decrease after being discharged, I had to fight to stay on active duty 
until I felt that I reached ``maximum medical benefit'' which for me 
was getting as close to my prior physical condition as possible within 
a reasonable amount of time. I was even told that I would receive dual 
compensation, or VA disability benefits and Army retirement benefits. 
Which only applies to disabled retires with 20 or more years of 
service. I always conducted my own research, but my concern was ``How 
many soldiers in similar situations were enticed with incorrect 
information?'' Initially, I did all of my own research, however, I have 
since received continued help from veterans organizations. Without 
these outside veterans' organizations, such as the wounded warrior 
project, soldiers such as myself would be very lost. And this just 
should not be. There is an overwhelming need for precise information as 
injured soldiers have to negotiate though a bureaucratic process to 
transition into a new situation. And it is the Government's job to 
provide this information in an effective manner, in order to facilitate 
the future success for injured soldiers.
    I finished the medical board process 16 months after being injured, 
and entered military disability retirement where I took advantage of 
the VA services offered. Again, I was lucky enough to have veterans 
organizations help me parley the overwhelming amount of information. My 
wife and I are attending graduate school full-time, on dependant's 
education and vocational rehabilitation benefits respectively. I will 
also be using the VA grant for specially adapted housing. However, 
because of the financial strain of preparing myself for future 
employment, which is not a short process, it was necessary for me to 
also obtain Social Security disability benefits.
    I am very grateful for all of the services that have been provided 
from my government. I never realized how great America was until I went 
to Iraq and saw how differently I could have been raised. I am truly 
proud to be an American. If I had the chance to go back in time, I 
would choose the same path to defend this country every time. The 
country has stood by my side and provided me with a great amount of 
financial help. However, I was injured in the beginning of the war, and 
can only hope and advocate for the same support to continue for the 
soldiers being injured today. Because, I know without the help of 
American society, I would have been in much more dire financial 
distress. However remarkable the support from society is, the question 
remains: should this be the job of the American public?
    I would like to thank you again for this opportunity to testify. I 
would now be willing to answer questions that anyone may have.

    Senator Akaka. Thank you both for your testimony and for 
being here this morning. I know you have alluded to some of the 
experiences you have had, but let me ask both of you, and tell 
you that I would like to know about each of your personal 
experiences in transitioning from the military to civilian 
life. Tell me how you found the process. Were you given 
appropriate and helpful information by VA and DOD? Have either 
of you utilized the Department of Labor's service? What did 
these agencies do well? What can be done better?
    Lieutenant Fernandez?
    Lieutenant Fernandez. Sir, as I mentioned earlier, it is a 
lot of information to grasp as you go through the process, and 
a lot of times in going through that process, you get told a 
variety of information from just as many different people, and 
a lot of times that is hard to grasp, especially as you are 
trying to cope with a new lifestyle, the injuries that you 
sustained, and looking toward the future, wondering, now that 
my military career is over, what does the future hold for me?
    So I think that it would be helpful, I guess, to facilitate 
the process for the flow of information. And I know that the 
veterans service organizations helped me do that because they 
were one place that I could go. They were one avenue that I 
could go that would give me the answers that I needed and they 
would send me in the right direction.
    Senator Akaka. Mr. Wyatt?
    Mr. Wyatt. I definitely agree with that. One of the biggest 
problems was just a lot of information being given at one 
point, and if there was a more organized manner that they could 
give it to you, that would definitely help the problem.
    Another thing is there is a lot of waiting around going on, 
a lot of waiting for the med boards to happen. At that point 
you are still receiving Army military compensation which does 
not take care of a lot of the expenses, especially for soldiers 
with families.
    A great thing that could happen is if the med board process 
was sped up somehow. It seems like a lot of paperwork gets 
lost, misplaced, and it just seems like there is a lack of 
organization sometimes. It really did not seem like we were 
prepared for the amount of wounded that were really going to 
come in from this war. That would definitely help the 
situation.
    Senator Akaka. To both of you, during the process of 
transitioning from active duty to the veteran status, when were 
you first contacted by VA? In your opinion, do you believe that 
it was the right time, or should it have been sooner or later?
    Lieutenant Fernandez. Sir, I know right away I was 
contacted when I was in the hospital, which was very reassuring 
knowing that there were people there to help me out. A lot of 
times initially though, a lot of that information was thrown at 
me, and as mentioned earlier, at certain points it became 
overwhelming. Over time I was able to kind of sift through the 
information and make sense out of it and understand where it 
fit into my future goals. I believe that there was a sufficient 
amount of help there, but the organization of that information 
and the way that it is presented to the soldiers when they are 
in the hospital might be presented a little bit easier.
    Senator Akaka. Mr. Wyatt?
    Mr. Wyatt. Definitely. Soon as I can remember waking up in 
the hospital there was someone from the VA. To say it was too 
early, I do not think that is accurate. I think that they 
should show up as much as possible. You see so many faces in 
the hospital, so many people are coming around feeding you 
information, like John said, that it is tough to even figure 
out who was who and who was from what organization.
    What helped me the best, and a lot of my comrades over 
there, was to see them over and over and over again. Even if 
they are coming in to give you the same information, the 
repetition is important. You need to see that face, because 
there are so many people coming in to see you, whether it be 
doctors or press or the VA. You have to have that personal 
connection with them. I think that is important.
    Senator Akaka. Let me follow up before I turn to Senator 
Murray. Did VA contact you after their initial contact to 
remind you of services and programs they could provide, and 
when was that contact made?
    Lieutenant Fernandez. Yes, sir. VA did a lot of follow-up 
to make sure that I understood the programs that were available 
to me and the different opportunities that I had through the 
organization. I think that the repetition is important. As 
Tristan had mentioned, the repetition is important because you 
are given so much information. It was reassuring to know that 
the Administration was there to help out through the process.
    Senator Akaka. Mr. Wyatt?
    Mr. Wyatt. They contacted me as soon as I got home to 
Colorado from Walter Reed, and that seems to me to be where 
most of the wires get crossed, is when you leave the medical 
facility to go back home. It would be good if they had better 
points-of-contact from Walter Reed, so when you--I mean moving 
is a traumatic experience for anybody, and you are going to 
forget to call when you get home, so it would be good if they 
had plenty of points-of-contact, lots of people you can talk to 
when you return, but the VA did make a very good attempt at 
contacting me at every major transition point.
    Senator Akaka. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Thank you to both of you for coming and testifying before 
the Committee today, and helping us understand some of what you 
have gone through so we can do a good job for those who are 
returning.
    One of the concerns I have, coming from Washington State--
you are from Colorado--we are a long ways away from Walter 
Reed. So when our soldiers return home if they have not either 
gone through Walter Reed and been sent out or just gone 
directly home, whether or not there is sufficient support 
services for them out there. You were at Walter Reed. You had 
people at your bedside every day. What have you heard from 
other soldiers who have just gone straight back to California 
or Washington or Colorado, far away from here, about their 
ability to get good service?
    Lieutenant Fernandez. Well, ma'am, as Mr. Wyatt had 
mentioned, the transition is a difficult one, and maintaining 
points-of-contact and maintaining similar information as you 
move, because when you move you are in most cases dealing with 
different representatives of the Veterans Affairs. So I know 
for me it was good to have a single point-of-contact through a 
veterans service organization that I dealt with the whole time, 
and they kind of helped me sift through that information, and I 
know that other soldiers have had problems getting the same 
information because in many cases they are dealing with 
different people. So that is an obstacle that I believe needs 
to be overcome.
    Senator Murray. Mr. Wyatt?
    Mr. Wyatt. I definitely agree with that, as well as--I wear 
a prosthetic leg, and it seems to me Walter Reed is the mecca 
of prosthetics. They have all the new equipment. Everything is 
there. It gets cranked out in a timely fashion. Anytime I 
needed something serviced, it was immediate at Walter Reed. The 
biggest thing that I had to deal with was once I got to Denver 
they did not have all the equipment that Walter Reed did and I 
was not used to the process and things took a long time, and it 
gets frustrating.
    I opted to stay at Walter Reed for 6 months because someone 
informed me of this. My team leader, who had arrived earlier in 
the same incident in Iraq, opted to go back to Colorado. I 
received my prosthetic leg the same time he did, and he had 
been in the system for a few weeks more than I had, so we were 
at the same progress level, but I think what stymied his 
process was Walter Reed and the VAs in the other States need to 
stay in contact with the technology and with the new products, 
new legs, you know, everything that goes into this prosthetic 
development.
    Senator Murray. What about post traumatic stress syndrome? 
We are hearing a lot about soldiers who are returning, the 
stress situations that they are in and PTSD occurring after you 
have been discharged. What has been your experience with that?
    Lieutenant Fernandez. Ma'am, I know in my situation, from 
the minute I hit the hospital I adopted the attitude that I was 
not going to feel sorry for myself because of the soldiers that 
had passed away in the incident. Their families cannot say 
that. I think it really depends on the individual, therefore 
each individual needs to be assessed in a manner and they need 
to be reached out, and I know that was a big thing through 
Veterans Affairs, and they made sure that I was not undergoing 
any overdue emotional stress due to my injuries and situations 
that I might have encountered in Iraq.
    So I know that that problem was handled very well from the 
Veterans Affairs standpoint.
    Senator Murray. Mr. Wyatt?
    Mr. Wyatt. From what I have seen returning from combat, and 
especially if you are injured, PTSD is going to be the last 
thing on your mind, and to have that assessed at Walter Reed 
is--it is effective, but not as effective as it could be if it 
were assessed when you end up home with your family. PTSD is 
not going to be prevalent at an Army installation with a bunch 
of soldiers that just got back from combat. They are not going 
to want to go through the assessments. They are going to want 
to go home and see their families. They are going to want to 
get out of there. They are not going to want to hear it.
    I think it would be much more effective to immediately 
assess them once they got home, before something did happen, 
but once they get home to their natural environment, that is 
when things start to teeter. I think it would be great, you 
know, in my instance, once I got home and I got to the Denver 
VA that was high on the priority list to be assessed there.
    Senator Murray. My time is short, but I want to ask one 
other question. Lieutenant Fernandez, you talked about kind of 
pressure to be discharged. How did you experience that? Were 
people suggesting that you be discharged and----
    Lieutenant Fernandez. Well, ma'am, I think it again depends 
on the individual. In my case, it was not more beneficial for 
me to get out of the military. I was earning more of an income 
staying in, and as I went through the transition process I did 
not want to be, I guess, thrown out of the system and making 
less money when I had not reached what I myself determined as 
maximum medical benefit. For me, that was what I was running.
    Senator Murray. Did people suggest to you that you should 
be discharged?
    Lieutenant Fernandez. I think over the past few years they 
have tried to speed up the process, speed up the medical board 
process, but again, it has to be dependent on the individual. 
In some cases it is not going to be beneficial for the 
individual soldier to be rushed out of the military, and I 
think it really has to be dependent on the soldiers themselves, 
and they need to have a say in that process.
    Senator Murray. I appreciate both of you coming today.
    Mr. Chairman, just for the record, that is one of the 
concerns I have. I have fought long and hard for additional 
funding for the VA because of the influx of the soldiers coming 
in and the needs that are out there.
    One of the things I have heard from the other side is that 
these soldiers are part of the DOD system and the costs have 
not been put on the VA system. But I am hearing from many 
soldiers that they are being pushed very hard to be discharged, 
and as long as that pressure is there, we had better have the 
funding for veterans. It is one of the reasons I have fought 
hard for this.
    I appreciate both of you being here, and I will continue to 
do what I can to make sure we are there for you as you return 
home. Thank you.
    Senator Akaka. Thank you, Senator Murray.
    Senator Salazar, any comments or questions?

                STATEMENT OF HON. KEN SALAZAR, 
                   U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Senator Akaka.
    And thank you, Lt. Fernandez and Mr. Wyatt. Thank you for 
your service to our country. And Mr. Wyatt, since you have your 
roots in Colorado it is my honor to see you here and if there 
is ever anything that I can do for you as you move forward with 
the very long and productive life that you have ahead of you, I 
would be delighted to be at your services, as well as you, Lt. 
Fernandez.
    Senator Akaka, I just want to thank you and Senator Craig 
for bringing the attention that you are bringing to this very 
important issue. I know that both of you have introduced an 
amendment to create an insurance program to help the injured 
servicemembers, to help their families cope with the increased 
burdens that they face when they face major injuries. And I am 
proud to work with both you and with Senator Craig on this 
important legislation.
    We have all heard on this Committee from veterans in our 
States that there are a number of challenges that the VA faces 
in ensuring a smooth transition from active service duty to VA 
care. The first is simple demographics. More than 250,000 
servicemembers who fought in Afghanistan and Iraq have left the 
military. Sometimes I think it is easy for us to forget that 
number, but we are talking about a quarter million lives, a 
quarter million members of our military services who have 
served there, and more than 11,000 of these troops have been 
injured in those operations, 11,000 people. I come from a small 
town that only has 840 people in the southern part of Colorado, 
and I can think about the sheer size of the numbers of military 
personnel that have been injured or wounded in both Afghanistan 
and Iraq. And with the kinds of injuries that these soldiers 
have received, it is important for us as a Nation to make sure 
that we are doing everything we can to provide the seamless 
transition between DOD and the VA.
    I know that there have been problems. The VBA has had some 
trouble in dealing with benefits claims long before we went 
into war in Iraq. Though there has been some progress recently. 
I understand that the times for processing disability claims 
has gone from a high of 230 days to 160 days. When you think 
about having to wait in line for 160 days to have your claims 
processed, in my mind that is far too long. There is progress. 
I believe that the VBA and Veterans Administration are working 
on a number of different programs, but I hope that this hearing 
today will help us work with the VA and the VBA to make sure 
that we provide the best services we can to our veterans, and 
that we assure the seamless transition that we ought to have 
between DOD and the VA.
    I have a more extended statement, but I will just submit 
that for the record, Senator Akaka.
    [The prepared statement of Senator Salazar follows:]

                Prepared Statement of Hon. Ken Salazar, 
                       U.S. Senator from Colorado
    Thank you, Chairman Craig and Senator Akaka, for bringing needed 
attention to this important issue and for already taking steps to help 
soldiers returning home from Iraq and Afghanistan.
    Senators Craig and Akaka are introducing an amendment to create an 
insurance program for injured servicemembers to help their families 
cope with the increased burdens they face. I am proud that you both 
worked together on this legislation and I am proud to co-sponsor it.
    However, as we have all heard from veterans in our States, there 
are a number of challenges that the VA faces in smoothing the 
transition from active duty service to VA care.
    The first is simple demographics. More than 250,000 servicemembers 
who fought in Afghanistan and Iraq have left the military. More than 
11,000 troops have been injured in these operations. Many of these 
soldiers are returning home with missing limbs or major burns, but 
thousands more have wounds that are more subtle and will take years to 
diagnose.
    The second is administrative. The VBA had trouble dealing with 
benefits claims long before we went to war with Iraq.
    There has been some important progress recently, including reducing 
wait times for disability claims from a high of 230 days to 160 days. 
The Home Loan Guarantee Program, in particular, has seen amazing 
administrative successes dropping approval time from weeks to mere 
minutes.
    However, 321,000 veterans are still waiting for disability claims 
decisions. Veterans have to wait an average of 8 to 10 weeks to get 
their GI Bill benefits. Vets who do not immediately apply to Vocational 
Rehabilitation are sometimes lost to the system for years.
    A recent GAO report indicates that the VA has trouble anticipating 
its disability workload from year to year and has not fully accounted 
for more complicated claims stemming from war-related injuries.
    The third administrative challenge deals directly with the 
transition from DOD to VA. VA has done a great deal to reach out to 
troops returning home from Iraq and Afghanistan. But there many 
veterans are falling through the cracks.
    The VA has recognized this problem and has done its best to make it 
better. The VA has set up task forces and dispatched case workers to 
military medical treatment facilities. They have tried to reach 
incoming veterans earlier and better coordinate with the DOD.
    These efforts have done a lot of good. As we will hear from those 
who have been through the system, it does work for many people. But 
independent analysis has consistently shown that there are still huge 
gaps.
    The VA is having trouble getting the information they need from the 
DOD. The sharing of information and quality of casework management 
varies greatly from region to region. In some cases the DOD only gives 
the VA the names of new patients, with no information on severity of 
injury. In other cases, injured soldiers who do not apply for VA 
services immediately are lost to the system.
    This is an administrative problem with huge implications for our 
fighting men and women. It is also a problem that will not be fixed 
with half-measures.
    It is clear that the DOD needs to work more closely with the VA to 
share medical information. The VA also needs to redouble its efforts to 
fill the gaps in its outreach to make sure that seriously injured 
veterans are never lost to the system.
    I look forward to the testimony today and to tackling this problem 
in a comprehensive way.

    Senator Akaka. Thank you very much, Senator Salazar.
    There is currently a wealth of information available for 
transitioning disabled servicemembers on the Internet and 
through a 1-800 number. There are also the Army's Disabled 
Soldier Support System, the Marine For Life program, the 
Military One Source Program, and DOD's Military Severely 
Injured and Joint Support Operation Center.
    Were you aware of any of these programs? And if you were 
aware of them, did you use them, and did you find them helpful 
if you did use them as a referral source or in answering those 
questions?
    Lieutenant Fernandez.
    Lieutenant Fernandez. Sir, I believe the Disabled Soldiers 
Support System had contacted me at one time, and basically was 
information that I had already received. I think part of the 
problem lies in the fact that there are so many of these 
organizations, and there needs to be, I guess, a seamless 
amount of information, and they need to deal with the process 
in similar ways, because you cannot have all of these 
organizations operating in different directions with the same 
goals.
    Senator Akaka. Mr. Wyatt?
    Mr. Wyatt. I definitely agree. There is a lot of 
information coming from a lot of different sources, and they 
may only call one time. I got calls from a few while I was in 
the hospital, and it is tough to process all that information 
at one time and especially if they only call one time. You have 
no way of getting back to them. You are not quite sure even 
what they said sometimes. So if it could be all centralized and 
the information could be given in an organized manner that will 
cut a lot of the problems out.
    Senator Akaka. I want to thank you, Mr. Wyatt, and also to 
congratulate you with securing employment with VA, working on 
cyber security issues. I think that is wonderful when our 
Federal Government can hire recently separated servicemembers 
into the Federal workforce. Would you explain how you became 
aware of employment opportunities with VA?
    Mr. Wyatt. While I was in the hospital at Walter Reed, I 
was confronted with a program called Vocational Rehab. Pretty 
much what that does is it is really personalized testing that 
helps with education and employment. From there I was 
introduced to the Veterans IT program at the Regional VA over 
here. They contacted me about this program, and it helps 
disabled veterans acquire these hard-to-get GS position levels 
in the VA.
    Senator Akaka. Lieutenant Fernandez, thank you for your 
testimony too and your remarks, and your service to our Nation. 
I was very happy to see that you are utilizing the vocational 
rehabilitation benefits that are provided by VA too. I was 
additionally pleased to know that your wife is using VA 
benefits to get her master's degree in early childhood 
education. As a former teacher myself, I am very happy to see 
that both of you are pursuing careers in education.
    What additional services do you think the Government should 
be providing to servicemembers and their families?
    Lieutenant Fernandez. Sir, I think that the education 
benefits and the vocational rehabilitation benefits are 
outstanding, and they help you through that transition period. 
However, as I go to full time to get my graduate degree and my 
wife does the same thing in the goal to transition into a new 
career, it becomes very difficult to obtain other employment, 
and there is financial stress that is incurred with that, and I 
think that can be addressed.
    Even though there is money that is in place while you do 
receive educational benefits and while you do go to school, I 
am not sure if it is sufficient enough to be able to support a 
family while this is going on, especially in differing areas of 
the country. Costs of living differ throughout the country, and 
I should not be forced to live in a area where perhaps the cost 
of living is lower just to meet the needs of my family.
    Senator Akaka. I thank both of you for your testimony, and 
no question it will be helpful to us in our work in the Senate.
    Senator, do you have any other questions?
    Senator Salazar. Just one quick question, if I may, Mr. 
Chairman, and that is to Mr. Wyatt.
    Since you went through the VA program in Colorado as I 
understand it, how was that experience for you, and do you have 
any recommendations that you might want to make to me on how we 
might be able to improve that system?
    Mr. Wyatt. The personnel and the staff you have there are a 
class act. I was treated like a king from the second I walked 
in there. You have great people. My only concern is points-of-
contact. Coming from Walter Reed to Colorado there was a little 
bit of a discrepancy about who to contact and about what. The 
other thing would be the prosthetics department. They are great 
people down there. I think maybe with a little more funding, 
little bit more technology, they could really keep up with the 
things that Walter Reed put out. It seems like maybe a lot of 
the prosthetic work takes a little bit too long to get out 
because they do not have the proper tools to do the job.
    A lot of these soldiers coming back are going to be wounded 
with missing extremities. There is a lot of it. I have been 
seeing a lot of it. A lot of my friends are missing 
extremities, and I think that would be a great main focus of 
the Denver VA. Other than that, they are doing a spectacular 
job.
    Senator Salazar. We may have an opportunity if we can get 
moving on this new hospital out at Fitzsimmons to focus in on 
that particular need.
    Mr. Wyatt. Definitely.
    Senator Salazar. I know you are new in the system. I guess 
this is a question to both Lt. Fernandez and Mr. Wyatt. One of 
the problems that I think we have seen in this Committee is the 
difficulty in the VA keeping in touch with our veterans over 
the long term. We recently had a GAO report that said that 
veterans many times do not apply for vocational aid 
immediately. They wait for a while to get their application, 
and sometimes what happens is in that gap of time the VA loses 
contact with its veterans. You obviously are success stories of 
what the Veterans Administration has done, but do you have any 
suggestions about how the VA can make sure it stays in contact 
with its veterans over the long period of time as opposed to 
just in the period of your injury and then the transition from 
DOD over to the VA system? Looking out, you are still very 
young men, and you obviously are going to be interfacing with 
the VA over a long period of time. Any suggestions on how we 
can assure that we keep that connectedness there?
    Lieutenant Fernandez. Yes, sir. I think again it is going 
to come down to simplifying the ways that veterans are informed 
about the programs that are available to them. It is a bit 
daunting looking at it, especially when you are coming home 
with these injuries and you do not know what the future holds. 
There is a little bit of paper pushing involved when it comes 
to obtaining these things, and sometimes you run into problems 
with when you are able to get them and there is a lack in time 
and you really have to stay on top of the process. That at 
times is a daunting task.
    So if the process is simplified and information is 
simplified and given to the veterans to let them know exactly 
what they are eligible for and how they go about doing it in 
the most effective manner, then I think that would definitely 
help out the process in helping veterans get things that are 
going to help them in their future.
    Senator Salazar. Mr. Wyatt?
    Mr. Wyatt. I definitely agree. Another thing that needs to 
be thought is a lot of enlisted soldiers, especially some of 
the ones I served with, joined the military and expected to be 
in there 20 years maybe as an alternative to going to college. 
You know, college is great. It is not for everybody. When you 
get discharged medically you realize that your career in the 
military is over, and you cannot do that. College seems a 
little--it seems, you know, maybe it was not what you had 
planned for, maybe you did not want to go right away, and they 
do take time to think about it. I think the VA needs just to 
stay in contact to make sure they are making progress, whether 
it be vocational rehab or a trade school or something. I think 
that it would be great if the VA just continually kept in 
contact just to make sure you are making progress, that you are 
not slipping through the cracks. That seems to be a big deal. 
People just seem to slip through and there is no contact made 
after a while.
    Senator Salazar. Thank you very much.
    Senator Akaka. Thank you very much, Senator Salazar.
    I want to thank our witnesses, our first panel very much 
for your testimony. Thank you again, because as I repeat, it 
will be helpful to us. Thank you.
    [Applause.]
    Senator Akaka. May I at this time welcome the second panel: 
Admiral Daniel Cooper, who is Under Secretary for Benefits, 
representing the Department of Veterans Affairs; Frederico 
Juarbe, Jr., Assistant Secretary, Veterans Employment and 
Training, representing the Department of Labor and representing 
the Department of Defense; and John Molino, Assistant Secretary 
of Defense for Community and Family Policy, representing the 
Department of Defense.
    At this time, let me call a 3-minute recess.
    [Recess.]
    Senator Akaka. The hearing will be in order.
    Again, I would like to welcome this panel and ask for your 
testimony, Admiral Daniel Cooper.

         STATEMENT OF ADMIRAL DANIEL L. COOPER, UNDER 
    SECRETARY FOR BENEFITS, DEPARTMENT OF VETERANS AFFAIRS; 
    ACCOMPANIED BY ROBERT J. EPLEY, ASSOCIATE DEPUTY UNDER 
  SECRETARY FOR POLICY AND PROGRAM MANAGEMENT, DEPARTMENT OF 
                        VETERANS AFFAIRS

    Adm. Cooper. Senator Akaka, Senator Salazar, I am honored 
to be here today to discuss this very important issue of 
transition assistance provided to our returning servicemembers. 
I respectfully request that my written testimony be entered 
into the record.
    Let me also say that I was extremely impressed as I sat 
here and listened to the very powerful testimony by your first 
panel.
    Another thing I would like to do, I would like Linda Petty 
to stand up. Linda Petty is our representative at Walter Reed, 
and she is the one that has been responsible for this very good 
attempt at communications with all our young men and women 
returning. Did she stand up? I cannot see her.
    Senator Akaka. Yes, she did.
    Adm. Cooper. She has done a superb job for us and she has 
been out there about a year now.
    In the endeavor that we have here, VA works in concert with 
both the Department of Defense and Department of Labor. Our 
veterans range from returning men and women of the regular 
armed forces, the National Guard and the Reserve components, to 
those seriously disabled individuals who are case managed as 
they acclimate to the civilian world and the disabilities which 
they have received.
    In response to the thousands of returning veterans from 
Iraq and Afghanistan, VA has taken a number of steps to ensure 
a smooth and seamless transition from military service to their 
country to the status of veterans. My opinion is that we are 
doing more and providing real assistance to a degree not seen 
before in the Department of Veterans Affairs.
    In mid-2003 we recognized the need to develop case 
management procedures for those seriously disabled 
servicemembers and veterans who file a claim for disability 
compensation. This ensures that these individuals receive the 
highest level of service and all possible benefits to which 
they are entitled in the most expeditious and compassionate 
manner. For those who are not seriously injured, VBA policy 
does not require case management, but does require a higher-
than-normal level of service, calling for direct contact and 
assistance in filing claims.
    VBA has assigned full-time claims representatives to the 
Walter Reed Army Medical Center, the National Naval Medical 
Center in Bethesda, as well as representatives at other major 
military treatment facilities or MTFs across the Nation. These 
individuals also provide benefit counseling to seriously 
disabled servicemembers and their families. They serve as 
liaison and initiate paperwork for disability compensation 
claims to ensure that we have rapid processing prior to 
discharge and that benefits are available as soon as legally 
possible for those veterans.
    We have OIF/OEF coordinators designated in each one of our 
regional offices to act as liaison with the VA medical centers, 
the military facilities, and other regional offices. I have 
tasked the regional office directors with ensuring that each 
one of our returning men and women are under VA control and we 
know where they are and what we can do for them.
    Our benefits delivery at discharge, or BDD, program has 
continued to expand. This program facilitates the adjudication 
process for claims at the time of discharge. Servicemembers can 
file disability compensation claims prior to discharge from the 
military and take advantage of a significantly faster 
processing time once they are discharged.
    VBA has significantly increased outreach efforts to all 
servicemembers, and particularly to those returning from active 
duty in the National Guard and Reserve units. VA developed and 
distributes pamphlets, brochures and educational videos 
designed for returning servicemembers, for VA employees and 
others involved in this important effort. These resources are 
utilized at various outreach events such as transition 
assistance briefings, benefits briefings aboard returning 
aircraft carriers in the last 2 years, and Guard and Reserve 
briefings. In fiscal year 2004, VBA conducted more than 7,200 
pre-separation benefits briefings for more than 260,000 active 
duty attendees, and 1,400 pre- and post-separation briefings 
were given to 83,000 Reserve and Guard members.
    Our Vocational Rehabilitation and Employment program has 
improved to support veterans disabled in service, to include 
assigning a full-time vocational rehab contractor to Walter 
Reed Army Medical Center. Procedures are in place at other 
major MTFs for counselors who can provide the service necessary 
to let those men and women take advantage of our Vocational 
Rehabilitation Programs. Vocational Rehabilitation and 
Employment Guidebooks were developed specifically for helping 
disabled servicemembers make an informed choice about the 
program best suited for them. And we have established important 
relationships with both Federal and private entities who are 
willing to hire injured OIF and OEF servicemembers.
    The Department of Veterans Affairs has made, and continues 
to make, tremendous strides in service to our returning 
servicemembers.
    I appreciate the chance to be here and I will be glad to 
answer any questions that you may have.
    [The prepared statement of Adm. Cooper follows:]

  Prepared Statement of Admiral Daniel L. Cooper, Under Secretary for 
                Benefits, Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to testify today on this important issue. Providing 
outreach to military service men and women, including Reserve and 
National Guard members, is a vital responsibility of the Department of 
Veterans Affairs (VA) and particularly the Veterans Benefits 
Administration (VBA). We have dramatically increased our outreach 
activities over the last several years to reach servicemembers, not 
only when they are preparing to separate or retire from the military, 
but also upon their induction into service and during service.
    VBA is working with the Department of Defense (DOD) to ensure that 
all Military Entrance Process Stations (MEPS) give every inductee a 
copy of VA Pamphlet (21-00-1), A Summary of VA Benefits. We began 
providing this pamphlet to inductees in November 2004. It exposes new 
servicemembers to basic information about the VA benefits and services 
for which they will be eligible when they leave military service. We 
are also working with the military service departments to ensure that 
information packets distributed to Individual Ready Reserve and 
Individual Mobilization Augmentees during the demobilization process 
include information on VA benefits and services.
    Prior to separation or retirement from the military, VBA provides 
much more extensive information to servicemembers on specific VA 
benefits and services in which they might be even more interested as 
they depart the military. This information is conveyed in transition 
briefings as part of a formal 3-day Transition Assistance Program 
(TAP), and during the Disabled Transition Assistance Program (DTAP), as 
well as during individual interviews. To further improve DTAP 
briefings, VBA's Vocational Rehabilitation and Employment Service 
developed a standardized PowerPoint presentation and a new orientation 
video that greatly improve the quality and consistency of our outreach 
briefings for servicemembers, including Guard and Reserve members.
    During fiscal year 2004, VBA representatives conducted over 7,000 
briefings, which were attended by over 261,000 active duty personnel 
and their families residing in the United States. Included were 1,400 
briefings for more than 88,000 Reserve and National Guard members for 
whom VBA provides pre- and post-deployment briefings. In fiscal year 
2005 to date, VBA has conducted just under 4000 transition briefings 
attended by 157,000 plus participants. Nine-hundred-seventy-four of 
those briefings were for over 68,000 Reserve/Guard members. Returning 
Reserve/Guard members can elect to attend the formal TAP Workshop as 
well as DTAP.
    In addition to the briefings conducted in the United States, in 
fiscal year 2004 we conducted 625 overseas transition briefings for 
more than 15,180 servicemembers. Our people boarded three aircraft 
carriers and, during the return transit, conducted TAP briefings 
onboard the USS Constellation, USS Enterprise, and USS George 
Washington (on their return to the United States from extended 
deployments). To date this fiscal year, we have conducted 232 overseas 
transition briefings for 5,600 servicemembers, and will continue to 
support additional requests from the Department of the Navy for TAP 
briefings onboard ships.
    VBA has coordinated its efforts with military officials at the 
major demobilization sites to ensure that VA representatives are part 
of the briefings provided to returning servicemembers at the time of 
discharge. VBA representatives work closely with personnel from VA's 
Vet Centers at these sites.
    Soon after separation or retirement from the military, veterans, 
including Reserve and National Guard members called to active duty, 
receive a ``Welcome Home Package'' from VBA's Veterans Assistance at 
Discharge System (VADS). The package includes a letter from the 
Secretary, a copy of VA Pamphlet (21-00-1), A Summary of VA Benefits, 
and VA Form 21-0501, Veterans Benefits Timetable. A 6-month follow-up 
letter with similar information is also mailed to these veterans. 
Separate outreach mailings are sent concerning VA education and 
insurance benefits. In addition, the Secretary of Veterans Affairs 
sends a personal letter to each Operation Enduring Freedom/Operation 
Iraqi Freedom (OEF/OIF) veteran based on lists routinely provided by 
the Department of Defense. Included with that letter are VA pamphlets A 
Summary of VA Benefits, and A Summary of VA Benefits for National Guard 
and Reserve Personnel.
    A VA Web page, Operation Iraqi Freedom and Operation Enduring 
Freedom, can be accessed from VA's home page,  www.va.gov. Information 
specific to Reserve and Guard members is also included on this page as 
well as links to other Federal benefits in which returning 
servicemembers may be interested. The Web page has been accessed over 
377,000 times since its activation 16 months ago.
    To ensure a seamless transition for seriously injured veterans, 
particularly those from Iraq and Afghanistan, VBA has stationed 
benefits counselors to work alongside Veterans Health Administration 
social workers at key military installations where wounded 
servicemembers are frequently sent. These seamless transition 
counselors have been in place since 2003.
    Full-time VBA representatives are assigned to work bedside with 
patients at both the Walter Reed Army Medical Center in Washington, DC 
and the Bethesda Naval Medical Center in Maryland. Part-time VBA 
representatives are available at five other military medical treatment 
facilities throughout the U.S., and VBA representatives provide 
service, as needed, at all other military medical treatment facilities.
    As of April 5, 2005, 5,383 hospitalized returning servicemembers 
have been assisted through this program at the Brooke (TX), Eisenhower 
(GA), Madigan (WA) and Walter Reed (DC) Army Medical Centers; Bethesda 
Naval Hospital (MD); and the Evans (CO) and Darnell (TX) Army Community 
Hospitals.
    In addition to our disability compensation personnel, our 
Vocational Rehabilitation and Employment (VR&E) Service is actively 
participating with other organizations to strengthen our coordination 
and outreach efforts to disabled veterans. The goal is to ensure a 
seamless transition for OIF and OEF veterans. In December 2004, VR&E 
conducted a briefing for 150 severely disabled servicemembers and their 
spouses at the Salute to America's Heroes Conference in Orlando, 
Florida. We are working within such service improvement workgroups as 
VA's Seamless Transition Coordination Office, the National Guard/VA 
Joint Workgroup, Army Disabled Soldier Support System (DS3) Employment 
Workgroup, DOD/Department of Labor (DOL) Transition Assistance Program 
(TAP) Steering Committee, and the Marines for Life. VBA has assigned a 
point-of-contact to assist the staff at the new Department of Defense 
Military Severely Injured Joint Operations Center in northern Virginia 
to assist with inquiries from servicemembers and survivors relating to 
VA benefits and services.
    In our efforts to provide quality services to disabled veterans, 
VR&E has an ongoing partnership with the Department of Labor's (DOL) 
Veterans' Employment and Training Service (VETS). VR&E staff in 57 
regional offices and more than 100 outbased VA offices work closely 
with DOL's Disabled Veterans Outreach Program Specialists (DVOPs) and 
Local Veterans Employment Representatives (LVERs) to assist job-seeking 
veterans. There are currently 71 DOL DVOPs and LVERs co-located in 35 
VA regional offices and 26 outbased locations. Additionally, there are 
four VR&E personnel co-located in DOL offices in Louisville, Kentucky 
and St. Petersburg, Florida. DVOPs and LVERs stationed or co-located 
with us in VR&E field facilities have the opportunity to access the 
same resources available to VR&E staff. This access can help to better 
integrate DVOPs and LVERs into the initial vocational evaluation 
process with the real goal of the best delivery of employment services.
    VR&E has also collaborated with DOL on training for VA case 
managers as well as DVOPs and LVERs. VR&E and DOL jointly produced live 
satellite broadcasts about the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) and special hiring authorities for 
Federal employment. Originally broadcast in February 2004, the USERRA 
broadcast explained the law and the benefits available for veterans who 
desire to resume the jobs that they left when they went on active duty 
or in some cases, because of a disability, be reemployed with the same 
employer in a comparable position. This satellite broadcast has been 
shown over 50 times. The special hiring authorities broadcast aired in 
July 2004 and included information on the expedited Federal hiring 
process for veterans with disabilities. These broadcasts provided 
important information for veterans seeking employment, and copies of 
the broadcasts continue to be distributed to VR&E and DOL personnel 
across the country for use by both staff and employers. Joint efforts 
such as this help to ensure seamless delivery of services to veterans 
by both VR&E and DOL.
    Additionally, VR&E and DOL have developed a draft memorandum of 
understanding (MOU) in which we agree to use our partnership to benefit 
veterans and provide quality employment services. Veterans need 
employment assistance as they return to civilian life and the VR&E/DOL 
partnership supports that need. VR&E and DOL meet regularly to discuss 
progress on present collaborative efforts and future possibilities.
    One of our newest and most successful initiatives is our Benefits 
Delivery at Discharge (BDD) program. Following our outreach efforts to 
servicemembers still on active duty, we now have an expedited process 
that will enable them to file an application for service-connected 
compensation even before they separate from the military. The required 
physical examinations are conducted, service medical records are 
reviewed, and a rating decision is prepared prior to discharge and 
delivered as soon thereafter as possible. For servicemembers applying 
while on active duty, our goal is to adjudicate claims within 30 days 
from discharge. Upon receipt of the claimant's DD Form 214 (Report of 
Release from Active Military Service), benefits are immediately 
authorized and the recently separated veteran can receive his/her first 
disability check the month following the month of discharge or shortly 
thereafter. Currently, 141 military installations worldwide participate 
in this program. Included are two sites in Germany and three in Korea. 
In fiscal year 2003, we processed just under 26,000 BDD claims. In 
fiscal year 2004, we processed 39,000 claims. This expedited BDD 
process is also utilized for veterans applying for benefits within 180 
days of discharge.
    VA participated in a number of Family Readiness Conferences such as 
the Army Reserve's Annual Family Action Plan Conference. VBA, 
represented by the St. Louis VA Regional Office, staffed a VA benefits 
and services information booth along with representatives from the 
local Veterans Centers. It is anticipated that similar conferences will 
be held throughout the country. Also, local VA facilities participate 
in homecoming events for servicemembers returning from Afghanistan and 
Iraq.
    Mr. Chairman, in summary, VA outreach to servicemembers and 
veterans is extensive and far-reaching. This completes my statement, 
and I will be happy to answer any questions you and other Members of 
the Committee might have.

    Senator Akaka. Thank you very much, Admiral Cooper.
    Frederico Juarbe.

         STATEMENT OF FREDERICO JUARBE, JR., ASSISTANT 
   SECRETARY FOR VETERANS EMPLOYMENT AND TRAINING, VETERANS 
      EMPLOYMENT AND TRAINING SERVICE, DEPARTMENT OF LABOR

    Mr. Juarbe. Thank you, Mr. Chairman and Senator Salazar.
    It is an honor to be here and to have been present to 
listen to the first panel, Mr. Chairman. It is men like 
Lieutenant Fernandez and Mr. Wyatt is what we are all about as 
America's servicemen and America's veterans, and them and their 
comrades in arms who stand in harm's way to defend us around 
the world against terrorism and to protect our freedom, so I am 
honored to be here.
    I am pleased to update you on the efforts of this 
Department with respect to ensuring that our servicemembers 
returning home from active duty military or following 
activations in the National Guard or Reserve are afforded the 
opportunity to transition to civilian life in the most seamless 
fashion.
    Like you, we are equally committed to providing America's 
veterans and transitioning servicemembers with the help they 
need to succeed in the 21st century workforce. We share your 
passion for ensuring a seamless continuum of services.
    To that end we work closely with Federal, State and private 
sector partners in order to leverage the effectiveness of our 
services to both the veterans and the military community.
    The Veterans Employment and Training Service is ideally 
structured to ensure these services are provided through its 
network of directors located in every State, working in close 
cooperation with the network of State veterans employment 
representatives that are provided through the Jobs for Veterans 
Act grants. The Transition Assistance Program is a partnership 
between the Departments of Labor, Defense, Homeland Security 
and Veterans Affairs.
    Our role is to provide as many comprehensive workshops as 
possible, where participants learn about job searches, career 
decisionmaking, current occupational and labor market 
conditions, resume and cover letter preparation and 
interviewing techniques. Participants are also provided an 
evaluation of their employability relative to the job market. 
We offer TAP workshops throughout the United States and in 
Germany, the United Kingdom, Guam, Mainland Japan, Okinawa, 
Korea and Italy. Our goal is to provide TAP at every location 
requested by the armed services.
    Mr. Chairman, I am sure you will agree that with regard to 
our recently wounded and injured servicemembers such as those 
on our first panel, we need to do everything we can to help 
them rebuild their lives.
    Secretary Chao set out to do just that when she tasked my 
office with the creation of a program that specifically 
addresses the needs of our returning wounded and their 
families. It is called the Recovery and Employment Assistance 
Lifeline. The REALifeline's program is the culmination of a 
collaborative planning process that began in November 2003, 
which included the Federal Departments of Defense and Veterans 
Affairs, veterans service organizations, State Governments, 
State workforce agencies, private employers and even military 
service organizations like the USO. REALifelines seeks to 
support the economic recovery and reemployment of transitioning 
wounded and injured servicemembers and their families by 
identifying barriers to employment or reemployment, and 
addressing those needs as early as possible.
    REALifelines has placed new specialists at Walter Reed, 
Bethesda, Fort Sam Houston in Texas and Fort Lewis in 
Washington, but its primary mission is to ensure easy access to 
the entire range of employment, reemployment, job training, 
workplace accommodation and supportive services available 
through the Career One-Stop Service system, and not only to the 
servicemember, but to the families that support them, and to 
spouses who have temporarily left their local jobs to be with 
their loved ones during recovery.
    We are also a key participant in the recently established 
DOD Military Severely Injured Joint Support Operation Center. 
We have onsite at this center a full-time staff member to 
ensure the coordination of services provided through the public 
workforce system, and have just added an employer-relations 
liaison to coordinate direct hiring by private sector 
employers. Through REALifelines we have provided a practical, 
personal resource for servicemembers to address the biggest 
issue they will face outside of their recovery, their economic 
and career success.
    The Bush Administration is deeply committed to protecting 
the reemployment rights of all members to the military. To this 
end the Department administers and enforces the Uniform 
Services Employment and Reemployment Rights Act, which provided 
reemployment rights following qualifying military service and 
prohibits employer discrimination against those who perform 
military service. Only 240,000 people and groups have been 
provided briefings and technical assistance on the rights and 
responsibilities under USERRA since September 11, 2001.
    Audiences include National Guard and Reserve units, 
employer groups and the media. While we endeavor to brief each 
returning servicemember on their reemployment rights, we know 
that with extended mobilizations there is also a need to 
provide more comprehensive transition assistance. This is why 
we have been working with the National Guard and Reserve on 
providing TAP services to these returning servicemembers in 
many States on an informal and as-needed basis.
    In summary, Mr. Chairman, the Department of Labor is 
working hard to improve the quality of life for veterans as 
well as current transitioning servicemembers and their spouses. 
The transition of these individuals into the civilian workforce 
serves to benefit the entire American labor force. Most 
importantly, through our efforts we express our gratitude and 
support for all that our military members and their families do 
for us.
    Mr. Chairman, that concludes my statement, and I would be 
pleased to address any questions that you may have.
    [The prepared statement of Mr. Juarbe follows:]

 Prepared Statement of Frederico Juarbe, Jr., Assistant Secretary for 
  Veterans Employment and Training, Veterans Employment and Training 
                      Service, Department of Labor
    Chairman Craig, Ranking Member Akaka, and distinguished Members of 
the Committee.
    It is my honor to appear before this Committee today on behalf of 
Secretary Elaine Chao. I would like to take this opportunity to update 
you on the efforts of this Department with respect to ensuring that our 
servicemembers returning home from active duty military, or following 
activations in the National Guard or Reserve, are afforded the 
opportunity to transition to civilian life in the most seamless 
fashion.
    The Department of Labor is very proud of the men and women in 
uniform, both active and reserve, who have served in the extraordinary 
campaign to liberate the people of Iraq and Afghanistan and protect us 
as a Nation from terrorism, as well as those who have served at any 
other time in our Nation's history. We value their service. They were 
there for us when we needed them, and as Secretary Chao has said on 
numerous occasions, it is our turn to be there for them. We support 
them by providing separating servicemembers, military spouses and 
veterans with the help that they need to succeed in the 21st century 
workforce.
    We are committed to connecting these men and women with employers 
who are very eager to tap their dedication, their talent and their 
skills. The Department of Labor has many offices and programs available 
to help servicemembers and spouses transition more easily between job 
markets. Through its Employment and Training Administration (ETA), 
Office of Disability Employment Policy (ODEP), Veterans Employment and 
Training Service (VETS), or any other office within the Department, 
veterans, transitioning servicemembers, and their spouses remain an 
important focus.
    VETS is ideally structured to ensure these services are provided 
through its network of directors located in every State, who work in 
close cooperation with the network of State veterans employment 
representatives provided through the Jobs for Veterans Act Grant.
                     transition assistance program
    Since 1990, when the Department of Labor began providing TAP 
workshops, over one million separating and retiring military members 
have been given job preparation assistance. In general, servicemembers 
who have been on active duty for at least 180 days are eligible for 
TAP, and those separating due to disability are eligible regardless of 
the length of their active duty service.
    TAP is a partnership between the Departments of Labor, Defense, 
Homeland Security, and Veterans Affairs. Title 10, U.S.C. Chapter 58, 
authorizes the Department of Labor to assist the Departments of Defense 
(DOD) and Veterans Affairs (VA) in providing transition assistance 
services to separating servicemembers and their spouses. The role of 
the Department of Labor is to work through VETS to conduct as many 
employment preparation workshops as possible, based on projections made 
by each of the Armed Services and the Department of Homeland Security 
(U.S. Coast Guard).
    VETS provides comprehensive workshops where participants learn 
about job searches, career decisionmaking, current occupational and 
labor market conditions, resume and cover letter preparation and 
interviewing techniques. Participants are also provided an evaluation 
of their employability relative to the job market. Components of a TAP 
workshop include:
    <bullet> Personal Appraisal
    <bullet> Career Exploration
    <bullet> Strategies for an effective job search
    <bullet> Interviews
    <bullet> Reviewing job offers
    <bullet> Other support and assistance
    Public Law 108-183 added section 4113 to Title 38, U.S.C. Chapter 
41 mandating VETS to provide TAP services at military installations 
overseas. Before this law took effect, VETS began facilitating TAP 
workshops at overseas military installations where, by previous 
interagency agreement, the Department of Defense had provided TAP 
workshops since the program's inception. VETS currently offers TAP 
workshops at 49 sites in Germany, the United Kingdom, Guam, Mainland 
Japan, Okinawa, Korea, and Italy. In fiscal year 2004, 5,939 separating 
service personnel attended these workshops in 286 separate classes. 
VETS continues to expand additional overseas sites in fiscal year 2005 
and beyond. Our goal is to provide TAP at every location requested by 
the Armed Services.
    State Workforce Agency Disabled Veteran Outreach Program (DVOP) 
specialists and Local Veterans Employment Representatives (LVER) are 
the primary source for TAP workshop facilitation stateside. However, 
because of the distances from many of the State Employment Offices to 
the military installations, and to assist with the rapid growth of the 
program, contract facilitators and VETS Federal staff also assist with 
TAP.
    TAP program participants receive valuable training and information 
that gives them an edge over other applicants for employment. TAP helps 
servicemembers and their spouses make the initial transition from 
military service to the civilian workplace with less difficulty. An 
independent national evaluation of the program estimated that 
servicemembers who had participated in TAP, on average, found their 
first post-military job 3 weeks sooner than those who did not 
participate in TAP.
    Servicemembers leaving the military with a service-connected 
disability are offered the Disabled Transition Assistance Program 
(DTAP) from the VA representatives. DTAP includes about four additional 
hours of individual instruction beyond the normal two-and-one-half-day 
TAP workshop to help determine job readiness and address the special 
needs of veterans with disabilities.
             employment services and programs for veterans
    Mr. Chairman, under the Jobs for Veterans Act (Public Law 107-288) 
passed in 2002, veterans receive priority in all DOL-funded employment 
and training programs. Separating servicemembers attending TAP may 
register with the workforce investment system, meaning once they are 
discharged and attain veteran status, they are eligible for priority in 
the services offered at One-Stop Career Centers nationwide.
    The public workforce investment system plays an important role in 
meeting employers' demands for a skilled workforce. The Workforce 
Investment Act of 1998 (WIA) was groundbreaking legislation that 
sparked improvements in the delivery of employment and training 
services nationwide through its One-Stop delivery system. Priority of 
service is available to veterans in all Department of Labor funded 
employment and training programs, which was a significant reform under 
the Jobs for Veterans Act. Today, our challenge is to take those 
reforms a dramatic step further to promote further innovation, to 
strengthen the One-Stop Career Center system to better serve all 
workers and businesses, and to make the system even more responsive to 
the needs of local labor markets.
    We must design a flexible workforce investment system that empowers 
State and local officials to create workforce solutions customized to 
that area's workers and employers. We must make certain that 
outstanding plans for innovative strategies are not thwarted by the 
maze of conflicting funding streams, program eligibility requirements, 
reporting systems and performance measures.
    This approach to workforce investment is at the heart of the 
President's proposal for job training reform. The centerpiece of the 
President's proposal is the consolidation of the WIA Adult, WIA 
Dislocated Worker, WIA Youth, and the Employment Service funding 
streams into a single grant to States. Governors would have the option 
of including an additional five programs, including Veterans Employment 
programs, into that single grant. Together, these programs represent 
over $7.5 billion in Federal resources. The consolidated grant would 
have a single State Integration Plan and a single performance and 
reporting system, thereby simplifying planning and reporting 
requirements. While program-specific requirements will be minimized, 
drops in participant levels for targeted populations, such as veterans, 
will not be allowed. In addition, the veterans' priority of service 
provision that applies to all DOL-funded programs will continue to 
apply, consistent with the Jobs for Veterans Act.
      recovery and employment assistance lifelines (realifelines)
    Mr. Chairman, I am sure you will agree that everyone who visits 
wounded soldiers--whether at Walter Reed, at Bethesda, or other 
military hospitals around the country and around the world--comes away 
with an overwhelming sense of pride, humility, and gratitude for the 
courage that these young men and women display as they confront the 
reality of their injuries. In these hospitals, many efforts are 
underway to do everything possible to help these wounded warriors 
recover from their injuries. And the Department of Labor recognizes 
that we too need to do everything we can to help them rebuild their 
lives.
    Secretary Chao set out to do just that when she launched a new 
program last October at Walter Reed Army Medical Center. It is called 
the Recovery and Employment Assistance Lifelines or ``REALifelines'' 
Program.
    The REALifelines program is the culmination of a collaborative 
planning process that began in November 2003 and has included 
participation from the Federal Departments of Defense and Veterans' 
Affairs, State governments, State workforce agencies, veteran service 
organizations, private employers and even military service 
organizations like the USO. This program was built from the ground-up 
by service providers, by disabled veterans and even veterans of the 
Gulf War and Operation Iraqi Freedom. The purpose of REALifelines is to 
provide wounded and injured servicemembers and their families with 
personal assistance to ensure a successful transition to civilian life 
and to prepare them for rewarding careers. In addition to assisting 
wounded and injured servicemembers, REALifelines makes job training and 
employment services available to spouses in families that have suffered 
an active duty casualty, as well as to family members who have 
temporarily left their jobs to be with their loved ones during 
recovery.
    REALifelines representatives are currently stationed at Walter Reed 
Army Medical Center and Bethesda National Naval Medical Center, and new 
specialists have begun work with the 654th Medical Holding Company at 
Fort Lewis, Washington, and Fort Sam Houston in San Antonio, Texas. 
REALifelines representatives are State workforce system employees with 
experience in career coaching, case management, job searches, 
transition assistance, reemployment rights and crisis intervention. And 
because they are an integral part of the State workforce system in 
which that base or holding company is located, they have full knowledge 
of, and access to, One-Stop Career Center Services, and become powerful 
advocates for priority of service. We are in the process of placing 
these employment representatives at additional military medical centers 
and medical holding companies.
    The Department of Labor is also a key participant in the recently 
established DOD Military Severely Injured Joint Support Operations 
Center. We have onsite, a full-time REALifelines staff member to ensure 
the coordination of the full array of employment and training services 
provided through the public workforce system, and have just added an 
employer-relations liaison to coordinate direct hiring by private 
sector employers. As you know, the Joint Center is also partnered with 
the Transportation Security Administration to ensure that those 
severely injured traverse our Nation's airports in a safe, respectful 
and non-invasive manner.
    The most important aspect of this program is person-to-person 
assistance. In an age where web and online utilities and technologies 
are gaining dominance over human interaction, it is our belief that 
there is still no substitute for direct person-to-person 
relationships--face-to-face as much as possible--when assisting people 
and families struggling with the challenges of wounds, injuries, crisis 
and post-traumatic reintegration. Therefore, the first task of 
REALifelines representatives is to establish for the servicemembers and 
their family a personal contact in their hometown community with whom 
they can begin to plan for their recovery and reemployment even before 
they are discharged from the military service. The REALifelines program 
looks first to the resources at hand, builds efficiency within those 
systems, and then works actively to fill gaps where they exist.
    The greatest challenge we face is that of information collection 
and sharing. At present, we are tracking servicemembers through their 
voluntary enrollment in State employment systems and through follow-up 
calls made by the Job Accommodation Network, which has been operating a 
demonstration program to facilitate referral, outcome measures and 
problem resolution.
    Our goal in partnership with DOD and Veterans' Affairs is to 
establish a joint database and shared processes for tracking and 
reporting outcomes. For this reason, we have placed staff at the Joint 
Operations Center and circulated recommendations for joint data 
elements both for servicemember employment profiles, and for job 
information from hiring employers. Labor participants are working daily 
with employment focused working groups from the Joint Operations Center 
and the Army's Council of Colonels, which provides policy and 
leadership for the Disabled Soldier Support System. Our goal is to be 
able to share this valuable data at the Federal level.
    REALifelines is about closing the gaps between Federal, State, 
local and private systems. It is about creating greater efficiency, 
being proactive, and assuring responsiveness to the needs of our 
returning wounded and injured servicemembers and their families. Our 
early successes are proving the value of this program. We are reducing 
the number of servicemembers returning home without jobs and we are 
reducing the number of servicemembers losing their jobs upon return. We 
have provided a practical, personal resource for servicemembers to 
address the biggest issue they will face outside of their recovery--
their economic and career success.
    New initiatives are being developed in partnership with DOD and the 
VA, such as mentorship and Federal internship opportunities. The 
Department of Labor intends to be a model in Federal hiring, and in the 
provision of mentorship opportunities for servicemembers during their 
recovery. We believe that opportunity is a very powerful and effective 
tool for recovery and reintegration.
                       national guard and reserve
    Mr. Chairman, the world has changed dramatically since the attacks 
of September 2001 and the commencement of the Global War on Terrorism. 
Our worldwide military commitments have necessitated a mobilization of 
National Guard and Reserve members that is unprecedented in modern 
times.
    The use of the National Guard and Reserves has increased 
dramatically in recent years, with more called to active duty than at 
any other time since the Korean War. Over 485,000 men and women of the 
National Guard and Reserve components have been called to active duty 
since September 2001. Over 310,000 of these ``citizen-soldiers'' have 
returned and been demobilized or separated from the military. The Bush 
Administration is deeply committed to protecting the reemployment 
rights of the Guardsmen and Reservists who so bravely serve America in 
Iraq, Afghanistan and around the world. To this end, the Department 
administers and enforces the Uniformed Services Employment and 
Reemployment Rights Act (USERRA), which provides reemployment rights 
following qualifying military service and prohibits employer 
discrimination against those who perform military service. The 
Department of Justice and the Office of the Special Counsel also 
provide USERRA enforcement services.
    Our servicemembers deserve the peace of mind that comes with 
knowing that upon their return from military service, they will be 
entitled to prompt reemployment in the position that they would have 
held had they been continuously employed by the civilian employer 
during their period of service, or in some cases to a comparable 
position, including all attendant benefits. Our strong commitment to 
supporting our citizen-soldiers is underscored by the development, for 
the first time, of comprehensive regulations on USERRA. These 
regulations will provide an authoritative interpretation of the law and 
procedures for enforcement and will serve to improve USERRA compliance. 
The proposed regulations were published for comment in the Federal 
Register on Monday, September 20, 2004, and it is anticipated that 
final regulations will be published this year.
    Since the attacks of September 11, 2001, the Department of Labor's 
Veterans' Employment and Training Service (VETS) staff has conducted 
briefings and provided technical assistance to over 240,000 people and 
groups on their rights and responsibilities under USERRA. Audiences 
include National Guard and Reserve units, employer groups, and the 
media. While we endeavor to brief each returning servicemember on their 
reemployment rights, we know that, with extended mobilizations, there 
is also a need to provide more comprehensive transition assistance.
    As a result, we have been working with the National Guard and 
Reserve on providing TAP services to these returning servicemembers in 
many States on an informal and as-needed basis. However, recently we 
launched three formal Reserve Component TAP demonstration programs in 
Oregon, Michigan and Minnesota, where there was a compelling need for 
these workshops. The idea behind the Reserve Component TAP 
demonstrations is to work with returning units and provide a flexible 
format that allows for a tailored transition assistance package that 
meets local demands. The approach in each location is unique. Once we 
evaluate the success of these programs and review any feedback from 
participants, we will work with the National Guard Bureau and Office of 
the Chief of Army Reserve to create flexible models that can be adapted 
to fit any situation.
 employer outreach and the president's national hire veterans committee
    The Jobs for Veterans Act established the President's National Hire 
Veterans Committee, which was announced by Secretary Chao in February, 
2004. There are 21 members who are reaching out to employers to make 
veterans more visible in our 21st century workforce.
    This Committee is responsible for raising awareness among employers 
on the advantages of hiring veterans and transitioning military 
members. Last year, the Committee launched a national campaign designed 
to drive employers to One-Stop Career Centers and to reinforce the 
outreach efforts of our LVERs and DVOPs. The Committee has also reached 
out to Governors, and to date, 30 gubernatorial proclamations have been 
announced declaring HireVetsFirst months in their respective States. We 
expect all States will announce these proclamations by the end of 
fiscal year 2005. The Committee has also forged significant strategic 
partnerships with major American businesses and corporations.
    The message of this campaign is simple; it is good business to hire 
a veteran, and it's a message the President's National Hire Veterans 
Committee is carrying all across America to employers and veterans.
                          partnership with dod
    On July 11, 2003, the Secretary of Labor and the Secretary of 
Defense signed a Memorandum of Understanding (MOU), which directs the 
Departments to study and undertake activities of mutual interest that 
may expand recruitment, job search services, training, placement, 
licensing and certification, and other services for military personnel, 
veterans, and their families. Under the MOU, work has focused in three 
key areas--recruitment, retention, and reentry. VETS, along with other 
key agencies in the Department of Labor, has fully participated in this 
collaboration, which has resulted in a wide array of new and/or 
enhanced strategies for serving these audiences.
    An area of particular focus in which VETS played a key role is 
enhancing the connection of transitioning military personnel to One-
Stop Career Centers through the TAP program. For example, one of the 
products has been a supplement to the TAP manual providing detailed 
information about One-Stop Career Center services and how to access 
them.
    In addition, the Departments are working on a compilation of 
successful partnering strategies now employed by TAP staff and One-Stop 
Career Centers in the field. This guide to best practices will soon be 
distributed to TAP offices and the workforce investment system 
nationwide.
    The goal of these efforts is to educate program staff about the 
benefits and commitments involved in local partnerships and encourage 
them to leverage their resources. Direct business connections to TAP 
workshops are constrained by the mandated curriculum and limited time 
of the TAP workshops. However, promoting ties between the TAP offices 
and One-Stop Career Centers generally will help separating service 
personnel connect with businesses.
    The impact of these changes to the existing TAP program and 
workshops as well as the education and encouragement of local 
partnerships between TAP and the workforce investment system will 
ensure that transitioning military personnel are aware of and utilize 
all of the resources available to them as they search for employment 
and training opportunities.
             national emergency grants for military spouses
    The Department of Labor has also established a policy that States 
may apply for National Emergency Grant funds to enable the spouses of 
returning Guard or Reserve members, widows of military personnel who 
lost their lives on active duty, and certain other military spouses, to 
be provided employment and retraining assistance.
                                summary
    In summary Mr. Chairman, the Department of Labor is working hard to 
improve the quality of life for former, current, and transitioning 
servicemembers and their spouses. The transition of these individuals 
into the civilian workforce serves to benefit the entire American labor 
force. Most importantly, through our efforts, we express our gratitude 
and support for all that our military members and their families do for 
us.

    Senator Akaka. Thank you. Thank you very much.
    Mr. John Molino.

STATEMENT OF JOHN MOLINO, DEPUTY UNDER SECRETARY OF DEFENSE FOR 
                 MILITARY COMMUNITY AND FAMILY 
                 POLICY, DEPARTMENT OF DEFENSE

    Mr. Molino. Mr. Chairman, Senator Akaka, Members of the 
Committee, thank you for the opportunity to discuss the Defense 
Department's commitment to and effort on behalf of our severely 
injured servicemembers and their families. Thank you too for 
presenting the forum that allows, on behalf of the Department 
and everyone serving in the global war on terror, to thank our 
Nation's citizens for their strong, consistent and sincere 
support of the men and women who risk so much to protect 
freedom.
    Each military service has an active program appropriate to 
the number of severely injured within that service. The 
Military Severely Injured Joint Support Operations Center was 
established to make a long-term commitment and to fill the gaps 
and seams that may exist in individual service programs. It 
reaches beyond the Department of Defense to other Government 
agencies, the nonprofit world and corporate America.
    In addition to helping solve immediate problems, the Center 
will identify challenges that require systemic, policy or 
legislative solutions for this and future conflicts. We have 
adopted a case management approach that we call ``care 
management.'' Highly qualified individuals, nurses or licensed 
social workers, answer the toll-free phones when they ring. In 
addition, we are using information provided by the Army to 
reach out to those who may have already passed through the 
system to ensure that their needs are being met.
    For many, we are about easing the rehabilitation and return 
to active service. For those whose service in uniform was 
truncated by the injuries they sustained, we want their 
transition to civilian life to be as free of complications as 
possible. If the bureaucracy must be fought, we will fight it. 
If corporate America must be reminded of its obligation to help 
find these talented citizens a new career, we will remind its 
leaders. Often the spouse must become the primary wage earner. 
We will help in that regard as well.
    Additionally, we will help those communities across America 
that are prepared to embrace one of these returning heroes to 
guarantee that he or she will never spend a holiday alone, will 
never want for meaningful employment, will never be left to 
wonder if America has forgotten.
    The Center is a living entity that will be in existence for 
as long as it takes. Its structure may change. Its roles may be 
modified to ensure it remains relevant, but our commitment to 
the severely injured and their families is solid and long term.
    Service in uniform is a noble undertaking. All who serve 
have volunteered. Each is deserving of our respect and 
admiration. All must be able to serve with the knowledge that 
the Congress, the Department of Defense and the Nation will 
neither forget nor abandon them should they suffer a traumatic 
injury in the service of freedom and the Nation that best 
represents freedom in the world.
    I welcome the opportunity to respond to your questions.
    [The prepared statement of Mr. Molino follows:]

 Prepared Statement of John Molino, Deputy Under Secretary of Defense 
    for Military Community and Family Policy, Department of Defense
    Mr. Chairman and Members of this distinguished Committee, thank you 
for the opportunity to be here today. It is my privilege to discuss the 
transition assistance provided to separating members of the armed 
forces, particularly those who have sustained severe or debilitating 
injuries in the line of duty.
    Congress deserves sincere thanks for its continued support of our 
efforts to ease the transition from military to civilian life for all 
our separating men and women in uniform. Your interest and assistance 
on this matter, both individually and as an institution, are very much 
appreciated.
                            severely injured
    I will focus this testimony on the actions taken to assist our 
severely injured as they reintegrate into their hometowns across 
America. These troops and family members who sacrificed so much deserve 
nothing but our best effort to assist them on their return to civilian 
life. Each of the Services has initiated an effort to ensure that our 
seriously wounded servicemembers are not forgotten--medically, 
administratively, or in any other way. To facilitate a coordinated 
response, the Department has established the Military Severely Injured 
Joint Support Operations Center. We are collaborating, not only with 
the military Services, but also with other departments of the Federal 
Government, nonprofit organizations, and corporate America, to assist 
these deserving men and women and their families.
    A number of our severely injured servicemembers will be able to 
return to duty, thanks to their dedication and commitment, and the 
phenomenal quality of military medicine. Some, however, will transition 
from the military and return to their hometowns or become new members 
of another civilian community. These are capable, competent, goal-
oriented men and women--the best of our Nation. They represent all the 
components bravely serving our Nation--the active ranks, the National 
Guard and the Reserve. We will ensure that during their rehabilitation 
we provide a ``case management'' approach to advocate for the 
servicemember and his or her family. From the Joint Support Operations 
Center here in Arlington, Virginia, near the seat of Government, to 
their communities across America, we will be with them. This will 
continue through their transition to the Department of Veterans 
Affairs, and the many other agencies and organizations providing 
support to them. Our goal is to provide long-term support to ensure 
that no injured servicemember is allowed to ``fall through the 
cracks.''
    I have mentioned that the Joint Support Operations Center is a 
collaborative effort, both inside and outside the government. I 
recognize and appreciate the interest and expressed desire of the 
Congress to help ensure the success of this effort. As we identify the 
need for statutory changes, we will be certain to make you aware and 
seek your assistance.
    The Center continues to provide a central point-of-contact for 
information and support through a toll-free hotline, available 24 hours 
a day, 365 days a year. Families are a primary focus. Since the 
Center's grand opening eleven weeks ago, our staff of care managers has 
fielded in excess of 1000 calls from injured personnel, their families 
or caretakers, and has placed in excess of 1000 calls in outreach 
efforts to find those same families who may have gone unnoticed or may 
require assistance. The contact numbers are growing. Callers reach the 
center with questions and concerns on topics that include immediate 
financial assistance, family support, lost promotion paperwork, 
employment after discharge, and healthcare. VA benefits and services 
remain the areas of greatest concern. Each new question or difficulty 
our staff is asked to address helps us to improve the service and may 
provide an opportunity for systemic improvements.
    We remain committed to helping wounded servicemembers reintegrate 
into their hometowns. Moving forward, the center will seek to provide 
avenues to improve assistance with job placement and assistance, non-
medical counseling, and financial support. We are also eager to do more 
for the spouses of injured personnel--who often become the primary 
breadwinners, or face career difficulties as they cope with the 
difficulties of the reintegration process.
    Of course, only a coordinated, multi-agency effort will ensure that 
those severely injured servicemembers and their families who return to 
civilian life, receive the level of care and access to resources that 
they deserve. Through the Joint Support Operations Center and other 
programs and initiatives, the Department of Defense has partnered with 
the Department of Veterans Affairs, the Department of Labor, the 
Department of Homeland Security, corporate America, and various levels 
of government to help ensure the myriad needs of our severely injured 
are met. Particularly successful has been the Center's relationship 
with the VA in addressing and resolving specific VA benefits and health 
entitlement issues and concerns. We communicate through a hot-line for 
emergency VA issues requiring immediate VA attention, and using special 
e-mail address to communicate non-emergency issues. In these instances, 
the VA has committed to a 24-hour turnaround. The Center has been able 
to facilitate the rapid resolution of many issues. The Department of 
Labor is assisting us in obtaining civil service and private sector 
jobs through its One-Stop Career Centers around the country and we are 
working closely with the Recovery and Employment Assistance Lifelines 
(REALifelines), which was announced by Secretary Elaine L. Chao on 
October 4, 2004. Similarly, to ensure facilitated and dignified 
security screenings of our severely injured as they travel through our 
Nation's airports, the Transportation Security Administration has 
stationed watch standers at the Center to do just this. When the Center 
receives word that a severely injured servicemember will be flying 
domestically, the TSA team will contact all airports on the itinerary 
to alert the appropriate offices at these locations. Not only have TSA 
folks around the country prepared for the expedited screening of these 
travelers, they have treated them like the heroes they truly are.
    The DOD State Liaison office is also actively engaging with State 
and local legislatures to rally communities and help guide their 
efforts in support of not only the severely injured, but all in-state 
military members and their families, to include the National Guard and 
Reserve. The office will be participating in the National Governors 
Association conference later this month and will be discussing many of 
these issues.
                service support for the severely injured
    The center, of course, would be nothing without the individual 
service and community efforts it coordinates. The centralized call 
center is designed to augment service programs, ensuring that, true to 
tradition and established practice, the Army, Navy, Air Force and 
Marine Corps are able to take care of their own.
                            marine for life
    The Marine Corps, building on the organizational network and 
strengths of the previously established Marine for Life Program, has 
implemented an Injured Support Program to assist severely injured 
Marines after they are discharged. The goal is to impress on them that 
the Marine Corps will always be there for them and to help them bridge 
the often difficult and lengthy gap between military care and the care 
provided by the Department of Veterans Affairs. The key is to ensure 
continuity of support through their transition. Features of the program 
include advocacy within the Marine Corps and Navy for the severely 
injured and their families and assistance in getting over the hurdles 
of any external agencies with whom they interact. Other extremely 
important features are pre- and post-service separation case 
management, assistance in working with physical evaluation boards, and 
an interactive website for disability/benefit information. To improve 
Department of Veterans Affairs handling of Marine cases there is a 
Marine liaison officer embedded within the VA headquarters. The program 
began operations in early January.
                                army ds3
    On April 30, 2004, the Army established the Disabled Soldier 
Support System (DS3) initiative to provide its severely disabled 
Soldiers and their families with a system of advocacy and follow-up 
with personal support to assist them as they confront the stress of 
their wounds and to think through the difficult decisions of continuing 
to pursue a military career or transitioning to the civilian community. 
Working closely with the Joint Support Operations Center, DS3 
incorporates and integrates several existing programs to provide 
holistic support services for severely injured Soldiers and their 
families throughout their phased progression from initial casualty 
notification to their return home and departure from the Service. The 
system facilitates communication and coordination between severely 
injured soldiers and their families and the pertinent local and 
national agencies and organizations, such as the Department of Veterans 
Affairs and the many commendable veterans service organizations. In 
addition, DS3 utilizes a system to track and monitor severely disabled 
soldiers for a period of up to 5 years beyond their medical retirement 
in order to provide appropriate assistance through an array of existing 
service providers.
                         air force palace hart
    If an Air Force servicemember is wounded in action, the Air Force 
is committed to do whatever it takes to help them recover. Their Palace 
HART (Helping Airmen Recover Together) program follows Air Force 
wounded in action until they return to active duty, or are medically 
retired. It then provides follow up assistance for 5-7 years post 
injury. The Air Force works to retain injured servicemembers on active 
duty if at all possible; however, if unable to return an Airman to 
active duty, work to get them civilian employment within the Air Force. 
The Air Force also ensures counseling is provided on all of the 
benefits to which an individual servicemember may be entitled within 
the Department of Defense, Department of Veterans Affairs, and 
Department of Labor.
                 navy support for the severely injured
    The Navy has a coordinated and tailored response for its men and 
women returning from Iraq, Afghanistan and other areas of conflict with 
severe debilitating injuries. These servicemembers, and their families 
are faced with very difficult long-term challenges, and the Navy team 
provides a strong, coordinated and unified approach to assist them and 
their families to recover and reintegrate.
                            national support
    The response from corporate America to our severely wounded 
veterans has been extremely positive. Many companies including those in 
the Fortune 500 have opened their arms to welcome the severely wounded 
into their companies through direct employment opportunities or 
internships for gaining invaluable experience and training. 
Corporations can post jobs on Military.com for the severely injured or 
their spouses (Military.com/support). We are also developing an Adopt a 
Service Member program to enable communities, corporations, businesses, 
and even private citizens to sponsor severely injured servicemembers 
and their families to help them with their respective needs.
    Academia has been similarly supportive of our efforts. The 
Department has been approached by colleges and universities interested 
in honoring personnel wounded in Iraq and Afghanistan. Some, like 
Ferris State University, are lowering their tuition charges for the 
severely wounded. Others, like Central Texas College (CTC), are 
developing special scholarships for the brave men and women who have 
been wounded. CTC has established twenty full scholarships, the CTC 
Iraqi Freedom Scholarship, for wounded personnel or for the spouses and 
dependents of those wounded or killed in action. Other institutions are 
stepping forward to help as well. We are establishing a web presence 
that will encourage and allow institutions from across the country to 
be placed on a list of schools that want to help in this regard. That 
site will be linked to website hosted by the Voluntary Education 
program, the Transition Assistance Program, and other agencies.
        transition assistance for all those leaving the military
    As you know, the Department and Military Services provide 
outstanding transition assistance to both Active and Reserve Component 
servicemembers. Upon demobilization, Guard and Reserve members, like 
their counterparts in the Active Component, receive the mandatory pre-
separation counseling. The pre-separation briefing explains the 
transition benefits and services that they are entitled to receive as a 
result of their service. Topics covered include employment, relocation, 
education and training, health and life insurance, finances, and 
disabled veterans benefits.
    With the support of our partners from the Departments of Labor and 
Veterans Affairs, we provide each Reserve Component servicemember a 
Uniformed Services Employment and Re-employment Rights Act briefing as 
well as a VA benefits briefing. These are in addition to the mandated 
pre-separation counseling briefing.
    In conclusion, on behalf of our servicemembers and their families, 
thank you to the Committee for your support during these demanding 
times and thank you for the opportunity to thank the Nation for the 
support of its citizens for the noble service of America's sons and 
daughters.

    Senator Akaka. Thank you very much. This is the second 
hearing that this Committee has had on the issue of seamless 
transition. We heard at the first hearing and again this 
morning that information needs to be provided in a more 
organized manner, particularly for soldiers recovering from 
injuries. What kind of coordination and processes can your 
agencies utilize to address this concern?
    I want to ask Admiral Cooper: Several newspaper accounts 
have chronicled the plight of returning servicemembers who had 
to overcome obstacles to undertake their studies including the 
lack of timeliness in getting funds from VA to the veteran; in 
articles, Jack McCoy, Director of the VA Education Service said 
that an influx of veterans going to school with the VA's help, 
too few claims processors and a computer glitch are among the 
reasons for the backlog. The fiscal year 2006 budget includes a 
decrease of 14 education claims processes.
    My question to you is how has this impacted the current 
situation?
    Adm. Cooper. I would say that we are overcoming the 
problems identified by Mr. McCoy. We have assigned a few more 
people to help in processing education claims. We are, however, 
pretty much inundated by claims coming in, rightfully so. 
Education claims are up about 10 percent each of the last 3 
years and part of the reason for that is the things that 
Congress has done to enhance the Montgomery GI Bill, making the 
education program more desirable to returning veterans.
    So we have had a larger influx. We have increased the 
number of people and we are watching the workload very 
carefully. I would say to you that, in fact, even today 
although we are not to our targeted goal, we are about 10 days 
to 2 weeks better in the processing of the education claims 
than we were 3 years ago. So whereas we have made progress over 
the years, we are not yet where we want to be. There are a few 
glitches now and then, and we resolve them as soon as we find 
out about them.
    Senator Akaka. Secretary Molino, DOD recently established 
the Military Severely Injured Joint Support Operations Center. 
The Army has its Disabled Service Members Support System, the 
Marines have the Marine for Life Program, the Air Force has its 
Helping Airmen Recover Together program, and the Navy is 
working on its Injured Marine and Sailors Initiative. What is 
being done to ensure that these programs are coordinated with 
each other and with the VA?
    Mr. Molino. Senator, the establishment of the Joint Support 
Operations Center is in part to address the need to ensure that 
there is collaboration, that there is coordination. The 
services are each stressing different features of their 
individual assistance programs. They do some parts better than 
others. The Joint Support Operations Center enables us to share 
best practices, enables the services to adopt those best 
practices of perhaps another program that they may not have 
thought of. It also allows us to identify opportunities where 
it is best to centralize and it is best for the Joint Support 
Operations Center to be the primary provider of a degree of 
support.
    As I said in my oral statement, we realized that there were 
gaps and there were seams between the services that should be 
provided, the needs of the servicemembers and the ability of 
our programs to provide those services. So the Center is either 
an umbrella or a safety net depending on how you prefer to look 
at it, to ensure that we fill those gaps and seams. It extends 
as well to the other governmental agencies, the VA and 
Department of Labor are noteworthy here, but we have also 
coordinated with Transportation Security Administration and 
other agencies to ensure that there is collaboration and there 
are ways to help.
    Seamless transition between DOD and VA has been a problem 
and a daunting issue for many, many years, as you know from 
your long service in the Senate, sir. We are working as 
diligently now as we have ever worked. Certainly the need is 
more apparent now than perhaps it ever was. I know that the 
Department of Defense is committed, and I am fully confident, 
based on Admiral Cooper's comments and our experience working 
with the VA, that we are committed to working out whatever 
seams remain, working through the administrative hassles. If 
there are any statutory hassles, we will work through those as 
well with your collaboration and cooperation to do the best we 
can for our deserving heroes.
    Senator Akaka. And the process, is DOD establishing a DOD-
wide standard for these programs?
    Mr. Molino. We have not done that, Senator, and I think 
that may materialize at the end of the Joint Support Operations 
Center. We are trying to present the center as something that 
enables the service programs to succeed. The feedback we have 
received from many of the injured veterans, and frankly, the 
testimony this morning will be very helpful because it presents 
a different perspective that I had not heard.
    We have heard from injured Marines, for instance, that they 
want to be helped by Marines. They want to know that the Marine 
Corps was with them from beginning to end. The Joint Support 
Operations Center is intended to allow the Marine program to 
succeed. If we need to fill in something that they perhaps do 
not have the resources, the funding or the equipment to do, we 
are happy to do that. But when that Marine goes home and he 
looks back on his service and he or she is trying to influence 
a young high school graduate about whether or not he or she 
should serve, we want them to be able to say, ``The Marines 
were with me from beginning to end.''
    So while it may seem redundant to have individual service 
programs, we do think it is important. We will stay in the 
background. The name of the center is particularly awkward, I 
will have to admit, but it is almost by design that way. It 
does not reduce itself to a fancy acronym. If a Marine wants to 
know who helped him, it is Marine for Life. If an Army soldier 
wants to know who helped him, it is DS3. I am fine with that. 
We will stay in the background. We just want to make sure that 
none of the service programs ever fail.
    And, Senator, if I could indulge you just one more brief 
period of time, I failed in my oral statement to mention the 
toll-free number, and since I know that this is being recorded 
and there is a likelihood that it will be broadcast, I would 
like to say that the toll free number for the Joint Support 
Operations Center is 1-888-774-1361, and for anyone who hears 
this, who knows of an injured servicemember or a family member 
who is worried about that servicemember, we can be the start 
point. We will be the warm referral either to the VA, to Labor 
or to the services to make sure that happens.
    Senator Murray mentioned post traumatic stress disorder. We 
are beginning to see, we think, some of that come forward. And 
as you know, post traumatic stress disorder sometimes waits a 
decade before it manifests itself. If a family member sees any 
signs of PTSD, a phone call to the center will begin that 
support to help a veteran who may be suffering from PTSD.
    Senator Akaka. Thank you. With this wide array of programs 
that we are talking about, what are they doing to educate 
separating disabled servicemembers of where they should turn? 
Strangely it seems that there is competition among the services 
rather than coordination and synchronization. You mentioned 
redundancy too. What is being done to prevent this?
    Mr. Molino. There is always some healthy competition, 
Senator, and where it is healthy I won't interfere. But what we 
have seen in this instance is an enormously high degree of 
collaboration. We have seen the services step forward. If a 
Marine goes home to an area where there is no real Marine 
presence, but there is an Army presence, the Army program with 
a regional coordinator has stepped forward to be of assistance.
    We are trying to, as I said, be the collaborative point so 
that the support can be rendered in that fashion. But I have 
seen more collaboration than competition. One thing that both 
John and Tristan mentioned at the first panel is the flow of 
information that happens even while they are still patients. 
The truth of the matter, Senator, is they are drinking from a 
fire hose. There is no way we can expect them to absorb all 
that information immediately.
    I have had the privilege of meeting with injured 
servicemembers while they are in the hospital. Their heads are 
still very foggy. Very often they are still on pretty serious 
medication. They cannot be expected to comprehend all of this 
the willingness of the Departments of Labor, Veterans Affairs 
and Defense, the presence of the Center. When they get home or 
when their heads clear, any hour of the day or night--this is a 
24/7 operation--they can make a phone call and say, ``I didn't 
quite understand what I heard,'' or ``This is what I think I 
heard. Is that true?'' The Center can be that first step to 
clearing away the fog that is understandable when they first 
got a piece of information, and help them to get the help or 
the assistance they need.
    These are great Americans who are going to live great and 
productive lives, and it is up to us to help them.
    Senator Akaka. Thank you.
    Secretary Juarbe and Admiral Cooper, describe how your 
agencies interact and communicate in working toward a goal of 
seamless transition.
    Adm. Cooper. Let me discuss it from the VA side. The 
seamless transition, as I see it, first starts with those who 
are seriously disabled, and that is the reason we set up the 
special offices at both Walter Reed and Bethesda. These are the 
primary entry points for returning OEF/OIF servicemembers who 
are seriously disabled. We monitor them very carefully, as I 
said, so that if they are discharged, we can adjudicate their 
claims immediately. We also want to make sure we have all the 
medical records if they are discharged. So the primary point is 
to get every piece of information, talk to them, make ourselves 
available, and also be prepared once they are discharged. If 
they stay in the service, of course, we still communicate with 
them and advise them about the various services that are 
available while they are in the service.
    When an individual leaves Walter Reed, Bethesda, or any of 
the other facilities where we have personnel stationed, we 
notify the VHA hospital and the regional office of jurisdiction 
in the area to which they are going.
    The regional office will assign an individual to contact 
the veteran. VHA will receive the medical records and VBA will 
receive the necessary records for filing claims. We continue to 
communicate with individuals, particularly as regards 
vocational rehabilitation, to ensure that they know what 
benefits are available. If they decide to do nothing 
immediately, we have mandatory follow-ups at 6 months and 1 
year to say, ``OK, would you like to talk about it now? Is 
there something more we can do?''
    So I think we have a pretty solid process in place.
    Senator Akaka. Thank you.
    Secretary Juarbe?
    Mr. Juarbe. Senator Akaka, there is obviously great need 
for coordination. Much is needed. And we do our part in working 
together both with the Department of Defense and with the 
Department of Veterans Affairs. We have a tremendous resource 
in our national network of local veterans employment 
representatives and Disabled Veterans Outreach Program 
specialists. DVOPs, the latter group, is one that works 
integrally with the Department of Veterans Affairs through 
their vocational rehabilitation and employment program. It may 
start with a referral, but then the referral back to them after 
the rehabilitation process has been completed and setting up a 
case management system for the individuals.
    As I mentioned in my earlier statement, starting in 
November of 2003 we collaborated with the Departments of 
Defense and Department of Veterans Affairs and other partners 
at the State and private sector level to establish a recovery 
and employment assistance lifeline. With the establishing of 
the Joint Support Operations Center, we then felt that our 
program should work very closely with that center, and we are 
now integrally connected with them in that effort.
    The importance is working with our partners at DOD and at 
VA, our focus on the earliest possible intervention and very 
personal services. Now, as Mr. Molino said, they are drinking 
from a fire hose at the very beginning with a considerable 
amount of information. But, Senator Akaka, this is one case 
where redundancy is desirable. We have heard this morning from 
the first panel that repetition is needed and frequency is 
needed. The important thing is timing and follow up.
    The best way I can describe how some of that coordination 
can work effectively is a prime example that we have had with 
Sergeant Alfred Callas, who was featured in the GI Jobs issue 
this month, and I have a copy which I will make available to 
you. But in working with him as an amputee at Walter Reed, we 
have a representative located there, a Disabled Veterans 
Outreach Program specialist at Walter Reed who coordinated, 
identified what his interests were in employment upon returning 
home. And that is the key to following them up when they are 
back home.
    He connected with the Disabled Veterans Outreach Program 
specialist in the State of Kansas, and eventually, because he 
was interested in going into a new field, that of auto mechanic 
and working on HMMWV, we were able to secure a job for him with 
Lear Siegler at Fort Riley, Kansas; in addition to that, 
working with the private sector. So what we did here is the 
Federal sector working together and working with the State 
sector, and then working with private industry, we were able to 
get Mack Tools to donate a set of tools for Sergeant Callas to 
enter into his new career.
    That is how we see coordination, and that is a good example 
of how we see effective coordination from the earliest possible 
intervention all the way down to the home front.
    Senator Akaka. Admiral Cooper and Secretary Juarbe, are 
your employees in the trenches knowledgeable about the services 
that are offered by both VA and DOL so that they can give 
appropriate referrals to servicemembers, to agencies that they 
do not necessarily work for? For example, how are Disabled 
Veterans Outreach providers trained to appropriately refer 
veterans to agencies from which a veteran may benefit from 
utilizing services, specifically VA?
    Admiral?
    Adm. Cooper. I would say, yes, they are very well trained, 
especially in the Vocation Rehabilitation and Employment 
Program. This is an extremely well-run program. We did a study 
about a year-and-a-half ago to reorganize it and do everything 
we can to emphasize employment. When the young man or woman 
comes into our offices or comes into our program, we offer them 
options, or tracks, by which they can obtain employment, get an 
education, and/or become more independent in their daily 
living. I am firmly convinced that, although we need to 
continue training them, our VR&E counselors are well aware of 
the job opportunities, particularly in the areas where they are 
located and where they are helping veterans onsite.
    Senator Akaka. Secretary Juarbe.
    Mr. Juarbe. Continued training is a key part of it, and we 
are focused through our National Veterans Training Institute, 
where our DVOPs and the LVERs are trained. We ensure that they 
are aware of the benefits and programs that are available 
through the Department of Veterans Affairs, and we work very 
closely with the Department of Veterans Affairs in the 
coordination of the DVOPs with the VR&E program, and providing 
briefings to the VR&E staff on USERRA issues and other 
employment issues.
    Senator Akaka. I have a question here from Senator Craig. 
As I mentioned earlier, he is unable to be with us at this 
moment because he has an amendment on the floor.
    Senator Craig is impressed with the VA's program which 
wisely utilizes the talents of injured servicemembers like Mr. 
Wyatt. Are your departments doing anything similar to hire 
former servicemembers, Admiral?
    Adm. Cooper. Yes. Our Department started the program that 
the Senator is talking about as an experiment. The CIO for VA 
began by hiring 9 or 10 returning veterans. In just the last 2 
weeks this initiative has become a VA-wide program managed by 
the Office of Human Resources Management.
    And I am also pleased that, in my own organization, the 
Veterans Benefit Administration, 47 percent of the personnel 
are veterans. The National Cemetery Administration is about 75 
percent veterans. I think this demonstrates that VA is really 
trying to do everything they can.
    Senator Akaka. Secretary Molino?
    Mr. Molino. Senator, the first thing you hear from an 
injured soldier is what you heard this morning. Their first 
desire is to stay on active duty, go back with their unit and 
serve with their colleagues. When we can, the services are 
committed to doing just that. There have been stories in the 
press about disabled servicemembers who are able to return to 
active duty, full active duty with their units. When that does 
not happen the services offer the opportunity to find 
employment as a career civil servant either with the same 
service with which the person is familiar or in the broader 
Department of Defense or even beyond the Department of Defense 
to other Government agencies.
    We have two programs working within the Department of 
Defense to identify folks to take advantage of that. We are 
beginning with kind of an interim program where they can learn 
the skills, kind of try on the job and see if that is what they 
think they want to do with the rest of their lives. The Air 
Force indeed has a mandate that they have imposed upon 
themselves, if an Air Force airman is injured severely and 
cannot stay on active duty, they will find a job for that 
individual if they choose to take the job.
    So, yes, we are very aggressively doing that. And as I said 
earlier, Senator, these are very talented young Americans and 
we do not want to lose them. If they cannot stay in uniform and 
continue to serve, we would welcome them as civilian employees.
    Senator Akaka. Secretary Juarbe.
    Mr. Juarbe. The Veterans Employment and Training Service 
has the lead role in a program that is known as the Disabled 
Veterans Hiring Initiative, which is we have reached out to all 
Federal agencies, in partnership with the VA also, to talk 
about the special hiring authorities, the known competitive 
hiring authorities that are available to facilitate employment 
for disabled veterans, the severely disabled veterans. That is 
a program that we are very pleased with. In the Department of 
Labor, within my own Agency, we have a high level of veterans 
of course, and we are constantly looking for opportunities.
    Senator Akaka. Secretary Juarbe, I have two questions here 
from Senator Craig. How do you track DOL's efforts to provide 
employment assistance to recently separated combat veterans? Is 
priority given to these individuals? How many recently 
separated servicemembers who have sought DOL's employment 
assistance later found jobs?
    Mr. Juarbe. The follow-up and tracking is an integral part 
of the services that are performed by the DVOPs and the LVERs, 
and at the One-Stop Career Centers our approach has always been 
focused on case management and follow-up. The reporting from 
veterans is controlled through the Employment and Training 
Administration reports that we get on the ETA 9002, which is 
the macro report for the public labor exchange services to 
veterans. From that we derive the information concerning the 
services that are provided by the Disabled Veterans Outreach 
Program specialists and the local veterans employment 
representatives under the VETS Form 200.
    Through REALifelines we are also tracking those service-
members who have elected to enroll in the program, and we are 
working together with the Joint Support Center to continue that 
tracking of those individuals. Under the REALifelines Program 
we have been able to track--we have been working with 
approximately 200 cases since we started the program last 
October, and about 15 percent of those have resolved and 
resulted in decisions regarding employment, training or other 
opportunity outcomes.
    Senator Akaka. Secretary Juarbe, this question is from 
Senator Craig. 1,700 Idahoans were deployed to Iraq last 
November as part of the 116th Brigade Combat Team. Your Agency 
has the oversight responsibility of the law guaranteeing 
reemployment rights upon their return home. The question is, 
what activities have you undertaken to prepare for the return 
of these guardsmen so that complaints are held to a minimum?
    Mr. Juarbe. Since September 11, 2001 the Department of 
Labor, and through my agency, has had an aggressive compliance 
assistance outreach program, where we have provided briefings 
and technical assistance to over 240,000 individual members of 
the Guards and Reserves and employers. That outreach continues, 
and it has been in partnership with the U.S. Chamber of 
Commerce, the Society for Human Resource Management, the 
National Federation of Independent Businesses and other labor 
organizations like that and business organizations. And we 
provide pre-mobilization briefings and post-mobilization 
briefings.
    As I stated in my statement earlier, we recognize that 
there is an increased need for providing transition assistance 
to these individuals, even though most of them ostensibly will 
be returning back to a job if they are members of the Guards 
and Reserves, and those rights are protected. We know that many 
of them may not have an interest in pursuing other career 
opportunities, and also for those where their jobs are no 
longer there because the company may have gone out of business.
    What we have found is that as a result of this outreach we 
have been able to reduce the level of incidents of 
discrimination, and when those incidents of discrimination--and 
this is in comparison with the last major call-up of 265,000 in 
the Persian Gulf War. When we do address those incidents, with 
our partners, the Department of Defense National Committee on 
Employer Support of the Guard and Reserve which is our first 
line of defense out there with over 4,000 volunteers, is we are 
able to resolve many of these issues on an informal basis. Many 
employers simply did not understand the law, and they are 
willing to comply with it.
    We determined from that that there was a need for 
regulations, and to that extent we published regulations last 
fall for comments and we hope to issue the final regulations on 
USERRA, which was enacted in 1994, but those regulations should 
be out some time this year.
    We also have the poster which is now published and 
available for all employers who are supposed to make the 
information available through a poster or other means of the 
rights and responsibilities that individuals have under USERRA.
    Senator Akaka. My final question is to Admiral Cooper and 
Assistant Secretary Juarbe. We are anticipating a greater 
demand of Veterans Affairs as well as Department of Defense by 
our military people as well as our veterans, and we have been 
looking at our budget. So my question is on the budget to both 
of you. How have Veterans Affairs and Labor's budgets been 
increased to reflect the increased workload as a result of the 
present conflict? Admiral?
    Adm. Cooper. Our budget has essentially increased probably 
about 2 to 3 percent. Also, you may remember, last year and the 
year before, Secretary Principi, through the Supplemental 
Appropriation, was able to give us some extra money, and last 
year, transferred funds from the VHA budget to VBA. This 
allowed us to use 75 million this year, and we will have 50 
million extra in our budget this following year. So I would say 
those two are major moves that were made.
    Mr. Juarbe. Each year during my tenure at the Veterans 
Employment and Training Service, we have had an increase in our 
budgets, and for fiscal year 2006 we do have another increase 
in the total funding. We will increase the Jobs for Veterans 
Act grants which fund the outreach personnel, the VET reps, or 
the DVOPs and LVERs at the State level, with an increase of 
$1.3 million. The services to homeless veterans also are being 
increased. That is a program that is increasing by $1.2 million 
for fiscal year 2006.
    Senator Akaka. I want to thank my panelists very much for 
your responses today.
    It will, no question, be helpful to the Committee. There 
may be questions of Members. We would submit that for the 
record. We look forward to a better way of trying to service 
our veterans as well as our military personnel. I personally 
look forward to working with all of you in doing that, and by 
sharing information as we have we will be able to do that.
    So with that, thank you very much for being here this 
morning.
    The hearing stands adjourned.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Response to Post-Hearing Questions Submitted by Hon. Larry E. Craig, 
              Chairman, to Department of Veterans Affairs
    Question 1: If a recently separated National Guard member files a 
disability compensation claim for Post Traumatic Stress Disorder 
(PTSD), what priority is that claim given in the system? Do you believe 
all claims by recently separated combat veterans should be adjudicated 
on a priority basis?
    Response: The Veterans Benefit Administration (VBA) is giving top 
priority to the benefit claims of all returning war veterans, including 
National Guard members, who have serious physical injuries, and 
providing the best possible service to these returning heroes must 
remain our highest priority. Claims from terminally ill veterans, 
homeless veterans, veterans with severe financial hardship, and former 
prisoners of war also receive priority attention.
    Our goal must be to provide quality, timely, and compassionate 
service to all claimants. As a result, we do not believe that VA should 
adopt a policy of adjudicating all claims by recently separated combat 
veterans on a priority basis.
    Question 2: Of all the servicemembers medically discharged from 
service in the last 3 years, how many converted their life insurance 
coverage from SGLI to VGLI? Isn't this the population that would have 
the most difficulty purchasing life insurance in the commercial market? 
What more can be done, either by VA or the Congress, to emphasize the 
importance of this transitional benefit?
    Response: Medically discharged servicemembers need Veterans' Group 
Life Insurance (VGLI) most because the disabilities they incurred in 
service often make them uninsurable by private commercial companies 
unwilling to take a risk insuring an ``unhealthy life.''
    We do not have specific information regarding the number of 
servicemembers medically discharged from service who converted their 
Servicemembers' Group Life Insurance (SGLI) to VGLI. However, we have 
information showing that, since June 2001, 51 percent of separating 
servicemembers with military disability ratings of 50 percent or higher 
have applied for VGLI.
    The Department of Veterans Affairs (VA) and the Office of 
Servicemembers' Group Life Insurance (OSGLI) conduct extensive outreach 
to separating and recently separated members concerning VGLI. The 
outreach includes:
    <bullet> Providing all separating servicemembers, as part of the 
transitional assistance program (TAP) and disabled transitional 
assistance program (DTAP) briefings, and informational brochures on VA 
insurance programs. The brochures describe the importance of insurance 
and also provide eligibility information and a VGLI application.
    <bullet> Mailing VGLI applications to all separating 
servicemembers. OSGU sends all separating servicemembers VGLI 
applications to their address of record. A first mailing is sent 30 to 
60 days after discharge; a second is sent if there is no response 
within 2 weeks to the first mailing, and a third is sent at the end of 
the 1-year and 120-day period in which to convert to VGLI.
    <bullet> Conducting ``special outreach'' to the most disabled 
separating servicemembers. Specifically, the VA Insurance Service 
conducts computer matches to identify those servicemembers who have 
medically retired with a military disability rating of 50 percent or 
more who have not applied for VGLI or the SGU 1-year extension 
available to totally disabled servicemembers. These servicemembers are 
contacted by phone and provided assistance in applying for VA 
insurance, including VGLI and the SGLI extension.
    Through this outreach effort, approximately 38 percent of those 
contacted convert their insurance coverage. Prior to our outreach, 20 
percent or less converted their insurance coverage. To date, about $96 
million in insurance has been granted as a result of these outreach 
efforts.
    Question 3: I am impressed with your program, which wisely utilizes 
the talents of injured servicemembers like Tristan Wyatt. Are you aware 
of a larger Federal effort on this front, or is this program peculiar 
to VA?
    Response: In 2001, VA established a national veterans' employment 
program to assist all veterans in understanding veteran's preference 
and in accessing information on job opportunities in VA and other 
Federal agencies. Under this initiative, VA has participated in job 
fairs and career conferences; developed a website for veterans; and 
distributed brochures, posters, and CD-ROMs to military transition 
centers around the country.
    VA recently launched a nationwide initiative to assist injured and 
disabled servicemembers returning from Operations Enduring Freedom 
(OEF) and Operation Iraqi Freedom (OIF) in finding employment. The 
initiative will expand VA's Vet-information technology program, which 
provides volunteer work experience and employment to service-connected 
disabled veterans. Currently, efforts are underway to work with other 
Federal agencies, State and local officials, and private industry to 
provide job training, work experience, and career opportunities to 
medically discharged veterans.
    Question 4: At our last hearing GAO testified about some of the 
circumstances where the transition between DOD care and VA care aren't 
working seamlessly. One of those mentioned was that VA has no policy 
for maintaining contact with those veterans who may need time to adjust 
to the idea that they are too disabled to continue their military 
career and need to prepare for civilian jobs, thus they do not apply 
immediately for VA's vocational rehabilitation services. Describe for 
me some of the successful ways that VA's regional offices maintain 
contact with these individuals. What are you doing to rectify the 
problem GAO identified?
    Response: VBA released its first policy letter (20-03-36) to all 
field stations on September 23, 2003. That policy letter outlined 
procedures for outreach, coordination of VA services, and claims 
processing for OIF/OEF servicemembers and veterans.
    VBA policy letter 20-05-14, dated March 8, 2005, updated and 
expanded outreach and claims processing procedures for serving OIF/OEF 
servicemembers and veterans. This letter was jointly developed by the 
VBA Office of Field Operations and the VBA business lines, including 
Vocational Rehabilitation and Employment (VR&E). It Outlines specific 
outreach and coordination of VA services. Regional office (RO) 
directors are responsible for ensuring that VA maintains contact with 
seriously wounded servicemembers. Some of the procedures outlined in 
the policy letter pertain to outreach conducted by the ROs and 
providing VR&E benefits and services. Those activities include:
    <bullet> Each RO director must designate an OIF/OEF coordinator and 
an alternate.
    <bullet> An OIF/OEF case manager is assigned for each compensation 
claim received from a seriously disabled OIF/OEF servicemember.
    <bullet> Points-of-contact are established with military and VA 
medical facilities.
    <bullet> Education about available VA benefits, including VR&E 
benefits, and delivery of these benefits are coordinated and claims are 
managed by a case manager.
    <bullet> The RO director or assistant director must call returning 
seriously disabled servicemembers when they first arrive in the RO's 
jurisdiction to welcome them home and advise them that they will be 
contacted by the OIF/OEF coordinator.
    Procedures in the national policy directive which specifically 
relate to VR&E include:
    <bullet> After an entitlement disability has been established for 
an OIF/OEF servicemember, a VR&E counselor with jurisdiction over the 
hospital or medical holding company at a military facility will visit 
the servicemember to begin counseling and evaluation prior to 
discharge.
    <bullet> If, after initial contact, the servicemember or veteran 
does not respond or indicates ``no interest,'' VR&E will diary for a 
follow-up contact no later than 1 year after the initial contact.
    <bullet> VR&E officers will ensure that an indicator is affixed to 
the Counseling/Evaluation/Rehabilitation folder identifying that the 
veteran served in OIF/OEF. VR&E will maintain a log of each of the OIF/
OEF veterans they have contacted and with whom they are working.
    Question 5: Also at last month's hearing, GAO mentioned the need 
for VA and DOD to reach a formal information-sharing agreement so that 
VA can have systematic access to DOD data about populations who need VA 
services. What specifics does this agreement need to have to make sure 
that VA can appropriately deliver services? What has been the holdup in 
reaching this agreement? How do you suggest we can help facilitate this 
agreement?
    Response: VA's Office of General Counsel negotiated a memorandum of 
understanding (MOU) with the Department of Defense (DOD) to obtain the 
complete range of returning servicemember data VA needs for 
identification, tracking, and statistical/reporting purposes. This MOU 
addresses the transfer of information, including protected health 
information, on all servicemembers who are about to transition from DOD 
to VA or who are eligible for benefits administered by VA during their 
active duty. The MOU has been signed by VA officials and is with DOD 
for concurrence.
                               __________
 Response to Post-Hearing Questions Submitted by Hon. Larry E. Craig, 
  Chairman, to John M. Molino, Deputy Under Secretary of Defense for 
      Military Community and Family Policy, Department of Defense
    Question 1: How many Federal agencies have a presence at military 
treatment facilities like Walter Reed? Is there a worry about 
overwhelming injured servicemembers with information? How have the 
Military Services coordinated the well-intentioned efforts of other 
agencies so that the information provided can be absorbed at the 
appropriate time and pace of the injured servicemember?
    Answer: The presence of Federal agencies varies at military 
treatment facilities. For example, Walter Reed established a service 
delivery system, ``TEAMS'' (Transition Employment Assistance Management 
Services), to effectively coordinate both internal and external 
agencies' efforts to provide transition and employment assistance to 
servicemembers and their families at the appropriate time. This system 
includes the following:
                  department of veterans affairs (va)
    <bullet> VA Benefits Administration--to provide servicemembers 
comprehensive benefits counseling, assist in filing claims for VA 
benefits, obtain all relevant Army medical records, provide complete 
medical examinations, and process the VA applications for benefits, to 
include rating, prior to separation from active duty.
    <bullet> VA Office of Information and Technology (OI&T)--
established VET IT program designed to provide mentoring, coaching, 
and/or training to servicemembers in transition from military service 
to the civilian sector with the ultimate goal being employment within 
VA OI&T.
                       department of labor (dol)
    <bullet> DOL Employment & Training Service--facilitates Transition 
Assistance Program (TAP) consisting of instruction, information and 
assistance to members of the Armed Forces who are within 180 days of 
separation and their spouses in line with the mandates of 10 U.S.C. 
1144.
    <bullet> DOL Recovery and Employment Assistance Lifelines 
(REALifelines) Initiative established to ensure that wounded and 
injured servicemembers and their families get the support they need to 
be successful and competitive as they return to their homes by adding 
resources at the Federal, State, and local levels.
                  office of personnel management (opm)
    <bullet> OPM--A representative will be assigned to Walter Reed 2 
days of the week to coordinate outreach activities with WRAMC TAP Staff 
and provide Federal employment information to servicemembers and family 
members; serve as point-of-contact for other Federal agencies 
interested in providing employment opportunities and job search 
assistance; encourage Federal agencies to identify and establish 
collaborative endeavors to meet servicemembers' transition and 
employment needs; provide Federal employment and education information; 
and, upon request, participate in activities that further support WRAMC 
TAP.
                      department of defense (dod)
    <bullet> Computer/Electronic Accommodation Program (CAP)--provides 
assistive technology for wounded servicemembers and employees with 
disabilities. The Defense Applicant Assistance Office (DAAO)--
``Temporary Assignment Program'' initiative supports servicemembers in 
acquiring new work experiences and skills; networking opportunities and 
resources through temporary Federal work assignments that may lead to 
Federal employment opportunities with participating Federal agencies 
upon servicemembers' separation.
                   army career alumni program (acap)
    <bullet> Coordinates delivery of DOD Transition Assistance Program 
with TEAMS that empowers servicemembers to make informed career 
decisions through benefits counseling and employment assistance 
(including pre-separation briefings) and provides two employer 
databases of employers expressing interest in hiring servicemembers.
    WRAMC has developed a Memorandum of Understanding with the Office 
of Personnel Management (OPM) that will allow, once implemented, OPM to 
set up a liaison office to coordinate with all other Federal agencies 
that want to interface with severely injured servicemembers. This 
workable arrangement came about as a result of an Employment Transition 
Summit hosted by WRAMC in January 2005, and participated in by DOD, the 
Military Services and Federal agencies.
    Thanks to the establishment of the Military Severely Injured Center 
(a ``24/7'' call center staffed by nurses and master's level social 
workers), the Department is able to ensure the full scope of these 
services to each severely injured servicemember on a personal basis, 
when the servicemember is ready to absorb the information and make 
informed decisions.
    Question 2: In order to ensure that no injured servicemember 
``falls through the cracks'' when discharged, it is vital that DOD 
share with other Federal agencies the identities of these individuals. 
How is DOD working with VA and others on this front?
    Answer: DOD established the Military Severely Injured Center on 
February 1, 2005, to supplement Military Service efforts and ensure all 
``seams and gaps'' are filled. The Center is staffed with trained 
nurses, social workers, and VA, DOL and Transportation Security 
Administration representatives in a ``24/7'' call center to ensure the 
severely injured and their families receive the support and care they 
need. Counselor/Advocates with master's degrees in social work and 
nursing are also being located around the country near military 
treatment facilities, VA hospitals, and community-based hospitals to 
provide outreach support to severely injured and their families and to 
ensure coordination with the Center care managers and other Federal 
agencies, as necessary. The Center also serves as a backstop to support 
Military Services and other Federal agencies intended to help severely 
injured and their families if they hit a roadblock (whether medical 
care, finances, education, job assistance, counseling or transition 
issues) while on active duty or when they are discharged. DOD works 
directly with the VA and other Federal agencies (to include sharing 
identities of severely injured, as necessary and appropriate, 
protecting privacy, as required). The Center provides a ``warm hand-
off' and appropriate follow-up between agencies to ensure that no one 
``falls through the cracks.'' In addition to the Center, the program is 
supported by ten working groups, comprised of members of the DOD, 
Military Services and Federal agency staffs, that are responsible for 
extending support beyond the medical centers and defining solutions to 
difficult systemic issues that confront the severely injured and their 
families.
    The Department of Defense is working with VA to provide information 
on OEF/OIF servicemembers.
    <bullet> Recently Separated OEF/OIF Veterans-Active Duty and 
Reserve Components:
    <bullet> The Defense Manpower Data Center (DMDC), on behalf of 
Health Affairs, began routinely providing VA rosters of OEF and OIF 
veterans who have separated from active duty in September 2003. In June 
2004, DMDC instituted a new process that more accurately identified 
those who deployed to the OEF/OIF combat theaters. The accuracy of the 
DMDC OEF/OIF veteran rosters being provided today to VA is excellent. 
The DMDC rosters for the VA will continue to improve and will be 
regularly discussed by the DOD-VA Deployment Health Working Group.
    <bullet> Active Duty Servicemembers in the Physical Evaluation 
Board/Medical Evaluation Board (PEB/MEB) Process:
    <bullet> DOD has worked with VA to draft a Memorandum of 
Understanding that will ensure compliance with HIP AA as the two 
Departments share protected health information. The MOU is presently 
being staffed at VA for signature.
    <bullet> The Office of the Assistant Secretary of Defense (Health 
Affairs), Clinical and Program Policy has drafted a policy to provide 
authority and guidance on how DOD will collect critical data elements 
on severely injured and ill soldiers and provide this information to 
the VA. Under this policy--Expediting Veterans Benefits to Members with 
Serious Injuries and Illnesses--DOD would transmit needed data to the 
VA ``promptly, securely (virtual private network or secure system), and 
electronically from the Services, through Health Affairs, to the 
Department of Veterans Affairs.''
                               __________
 Response to Post-Hearing Questions Submitted by Hon. Larry E. Craig, 
 Chairman, to Frederico Juarbe, Jr., Assistant Secretary for Veterans 
 and Training, Veterans Employment and Training Service, Department of 
                                 Labor
    Question 1. How do you track DoL's efforts to provide employment 
assistance to recently separated combat veterans? Is priority given to 
these individual? How many recently separately servicemembers who have 
sought DoL's employment assistance later found jobs?
    Answer. No answer submitted by time of press.
    Question 2. 1,700 Idahoans were deployed to Iraq last November as 
part of the 116th Brigade Combat Team. Your agency has the oversight 
responsibility of the law guaranteeing re-employment rights upon their 
return home. What activities have you undertaken to prepare for the 
return of these Guardsmen so that complaints are held to a minimum?
    Answer. No answer submitted by time of press.
    Question 3. As the agency tasked with ensuring that veterans 
receive preference when competing for Federal employment, what efforts 
has the Department of Labor made to be a model employer of veterans? 
Does DoL have prgorams in place similar to VA's that seeks to employ 
recently separated veterans or seriously wounded veterans?
    Answer. No answer submitted by time of press.
  

                                  <all>

</pre></body></html>
